<html>
<title> - ENSURING AVIATION SAFETY IN THE ERA OF UNMANNED AIRCRAFT SYSTEMS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





    ENSURING AVIATION SAFETY IN THE ERA OF UNMANNED AIRCRAFT SYSTEMS

=======================================================================

                                (114-28)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 7, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   _____
                                   
                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-926 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York

                                  (ii)

  


                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman

DON YOUNG, Alaska                    RICK LARSEN, Washington
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
JOHN L. MICA, Florida                Columbia
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              ANDRE CARSON, Indiana
RICHARD L. HANNA, New York           ANN KIRKPATRICK, Arizona
REID J. RIBBLE, Wisconsin            DINA TITUS, Nevada
MARK MEADOWS, North Carolina         SEAN PATRICK MALONEY, New York
RODNEY DAVIS, Illinois               CHERI BUSTOS, Illinois
MARK SANFORD, South Carolina         JULIA BROWNLEY, California
ROB WOODALL, Georgia                 MICHAEL E. CAPUANO, Massachusetts
TODD ROKITA, Indiana                 STEVE COHEN, Tennessee
RYAN A. COSTELLO, Pennsylvania       RICHARD M. NOLAN, Minnesota
MIMI WALTERS, California             JOHN GARAMENDI, California
BARBARA COMSTOCK, Virginia           PETER A. DeFAZIO, Oregon (Ex 
CARLOS CURBELO, Florida              Officio)
LEE M. ZELDIN, New York
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)






















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

Michael G. Whitaker, Deputy Administrator, Federal Aviation 
  Administration:

    Testimony....................................................     5
    Prepared statement...........................................    44
    Responses to questions for the record from the following 
      Representatives:...........................................

        Hon. Frank A. LoBiondo of New Jersey.....................    53
        Hon. Sam Graves of Missouri..............................    53
James Hubbard, Deputy Chief, State and Private Forestry, U.S. 
  Forest Service:

    Testimony....................................................     5
    Prepared statement...........................................    56
Captain Tim Canoll, President, Air Line Pilots Association, 
  International:

    Testimony....................................................     5
    Prepared statement...........................................    61
Richard Hanson, Director of Government and Regulatory Affairs, 
  Academy of Model Aeronautics:

    Testimony....................................................     5
    Prepared statement...........................................    73
Mykel Kochenderfer, Ph.D., Assistant Professor of Aeronautics and 
  Astronautics:

    Testimony....................................................     5
    Prepared statement...........................................    99

                       SUBMISSIONS FOR THE RECORD

Letter of October 30, 2015, from Denis J. Mulligan, General 
  Manager, Golden Gate Bridge, Highway and Transportation 
  District, to Chairman Frank A. LoBiondo and Ranking Member Rick 
  Larsen, Subcommittee on Aviation...............................   103
Written statement of the National Association of Mutual Insurance 
  Companies......................................................   107

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
    ENSURING AVIATION SAFETY IN THE ERA OF UNMANNED AIRCRAFT SYSTEMS

                              ----------                              


                       WEDNESDAY, OCTOBER 7, 2015

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order. I would like to thank everyone for being here. I ask 
unanimous consent that Members not on the subcommittee be 
permitted to sit with the subcommittee at today's hearing, 
offer testimony, and ask questions.
    [No response.]
    Mr. LoBiondo. Without objection, so ordered.
    Today we look forward to hearing from various stakeholders 
on the very important topic to our country: aviation safety in 
the era of unmanned aircraft systems.
    Unmanned aircraft systems, or UAS, represent the latest 
frontier in aviation technology. While still a new industry, 
UAS are already contributing to our economy and changing how 
companies do business. Across the country, we already see UAS 
used for a myriad of operations, from surveying, photography, 
safety inspections, medical delivery, and search and rescue. 
With each new use, businesses and commercial users can save 
time, money, and even, in some cases, lives.
    But like any other new technology, UAS bring new challenges 
as well. In the past year, pilots have been reporting sightings 
of UAS near airports at an accelerating rate. In 2014, the FAA 
[Federal Aviation Administration] received 238 reports of drone 
sightings. In 2015, the number has already exceeded 600. Safety 
is paramount in aviation and the increased number of suspected 
sightings raises serious questions and concerns.
    Some of these reports involved airliners and occurred at 
low altitudes near the Nation's busiest airports. Other reports 
involve pilots of general aviation aircraft in less busy 
airspace. The real possibility of a midair collision must be 
taken seriously in order to prevent tragic consequences.
    To be clear, it is also my understanding that some of these 
reported sightings may involve something other than a consumer 
unwisely operating their new gadget in busy controlled airspace 
or restricted airspace. In at least some cases, the reported 
UAS may have been a Government-operated aircraft, lawfully 
operated UAS, or simply a bird in flight. To that end, we need 
to understand what precisely is going on in our airspace: what 
is the actual risk and how do we manage and mitigate it? With 
retailers readying for significant UAS purchases by American 
consumers this upcoming holiday season, this conversation and 
subsequent action cannot wait. There are real consequences if 
we are not cautious enough, though we must not go to the 
extreme which could unnecessarily restrict the UAS industry's 
growth and innovation here in the United States because of the 
so-called false positives.
    The key is balance, and I believe that this committee, as 
well as the FAA and stakeholders, continue to strive for just 
that, balance. The answer to these questions will be complex, 
though I am confident that our country can and will address 
them. I look forward to hearing from our witnesses and thank 
them for joining us today.
    Before I recognize Mr. Larsen for his comments, I ask 
unanimous consent that all Members have 5 legislative days to 
revise and extend their remarks, and include extraneous 
material for the record of this hearing.
    [No response.]
    Mr. LoBiondo. Without objection, so ordered.
    I would now like to yield to Mr. Larsen for his opening 
remarks.
    Mr. Larsen. Thank you, Chairman LoBiondo, for holding 
today's hearing on ensuring aviation safety in an era of 
unmanned aircraft systems.
    I am pleased we are here this morning to address this 
important and timely topic of the safety of UAS in the national 
airspace. The number of unmanned aircraft being sold in the 
U.S. is staggering. According to one industry group, the number 
of UAS sold this year could reach 700,000. That is a 63-percent 
increase over last year. Other reports suggest that figure will 
soon reach 1 million, and it will continue to grow.
    So, the natural question becomes who are flying these 
million-plus unmanned aircraft? Many, as we are going to hear, 
are responsible and safe users. These include serious 
hobbyists, such as those represented by the Academy of Model 
Aeronautics, who are here today, and commercial users with a 
financial interest in safe, responsible operations.
    But, unfortunately, they also include people who are not 
familiar with the rules of aviation or concepts of aviation 
safety. There are 600-plus reports of near misses between 
conventional aircraft and drones so far this year that tells us 
what we need to do more to reduce the likelihood of a drone 
ending up in the flight path of a commercial airliner with 
hundreds of people on board.
    These 600-plus pilot sightings suggest that allowing anyone 
to fly a drone on or near the Nation's airways is like letting 
people drive remote-controlled model cars on the interstate. 
Unless more is done, it is not if an accident will happen, it 
is when.
    The committee staff found some pilot reports in NASA's 
[National Aeronautics and Space Administration's] Aviation 
Safety Reporting System of some pretty scary encounters. One 
pilot reported that he ``encountered a drone that came close 
enough to hear the propeller noise from the drone from inside 
my cabin...The small size of the drone made it impossible to 
see until it was too late to take any evasive action.'' And the 
list continues.
    In addition to risks in the air, unmanned aircraft pose 
risks on the ground. This year an aerial vehicle crashed into 
parade-goers in Seattle, injuring one woman when it crashed 
into her head. I look forward to hearing from our witnesses 
today about what the FAA and stakeholders are doing to address 
the safety risks before it is too late.
    But we cannot deny the extensive public and commercial 
benefits of unmanned aircraft, as well. UAS can be used for 
search and rescue, wildfire mitigation, as well as the 
inspection of bridges and other critical transportation 
infrastructure. The UAS industry has great potential to drive 
growth and create jobs. One industry trade group estimates 
that, in just 10 years, unmanned aircraft will create 100,000 
jobs, and add $82 billion in value to our economy. That is 
particularly important to States like my home State of 
Washington, a hub of aviation research and development.
    This committee has an enormous opportunity to be proactive, 
to listen to these experts today, to understand what Congress 
can do to help keep our Nation's skies safe, and produce 
legislation about UAS that will reflect our safety agenda, 
while doing no harm to a promising industry.
    The FAA Act of 2012 directed FAA to safely integrate 
unmanned aircraft by 2015, and required the agency to issue 
regulations on small, unmanned aircraft. While FAA expects to 
issue this delayed rule next year, this action will provide 
regulation to safely implement primarily commercial operations. 
The question I hope we get at today is what should Congress do, 
and what can FAA do, as well, to ensure the safety of 
recreational UAS operations.
    Some have said that section 336 of the 2012 bill prohibits 
the agency from taking any meaningful action to regulate small 
recreational unmanned aircraft. I would caution against a broad 
interpretation of that provision, which is crafted to apply 
very narrowly. In fact, in light of all the safety events that 
have emerged this year, maybe it is time to revisit that 
provision.
    So, I look forward to hearing from all of our panelists 
today about what Congress, about what the FAA, and, importantly 
as well, what the industry can do to keep the integration of 
UAS on track, and to ensure safety. Thank you.
    Mr. LoBiondo. Thank you, Rick. I would like to really thank 
Rick Larsen for the close working relationship, and also Bill 
Shuster and Peter DeFazio, on this very important issue that we 
spend a lot of time with.
    Chairman Shuster is not here yet. Mr. DeFazio, some opening 
remarks?
    Mr. DeFazio. Thank you, Mr. Chairman. Appreciate the 
opportunity, appreciate the fact of you convening the committee 
on this important topic today.
    Yes, there is tremendous potential in commercial 
application of drone technology. But, first and foremost, we 
have to establish the rules that absolutely ensure the 
integrity and the safety of our aviation system today. We have 
seen instances mentioned by the ranking member earlier of these 
toy drones in critical airspace. At this point we don't really 
know what happens when you suck a quadcopter into a jet engine. 
And, at my request, the FAA is moving forward with an 
evaluation.
    We did, after an investigation in 2009 for Pittsburgh--or 
1994, Pittsburgh, possible bird strike, they calculated a 4-
pound bird hits an airplane moving at 260 miles an hour, 
generates a force equal to 14 tons. Well, you have some of 
these toys up there in the air that weigh that much. And so, 
what could that do, if ingested? So we need to know.
    What are the solutions? Well, clearly, there are commercial 
applications, which the FAA is moving forward with. The issue, 
I believe, can be kind of drawn between toys and commercial 
applications. And the toys need to be restricted, in terms of 
where they can operate. That is, they should be programmed 
before they can be sold, so that they can't fly in restricted 
airspace, they can't fly over 400 feet. And anybody who is 
found to have hacked that should be subject--and operates 
irresponsibly--should be subject to serious penalties and 
fines.
    I think we might also have to look at registration. I had 
an instance in my hometown of Springfield. Somebody, a Peeping 
Tom, was using a little drone, looking with a camera, looking 
in people's windows. It was sighted by the neighbors, and 
ultimately it crashed. Well, the police have no idea who was 
operating that thing. We have no way to track it back. There 
should be a way to track these things back to irresponsible 
operators, people who are using them illegally, improperly, and 
endangering both personal privacy and, potentially, safety of 
the traveling public.
    So, I think there is a lot of work to be done. We are going 
to hear today from the Forest Service. We had interruption in 
critical firefighting activities this summer because of idiots 
flying their toy drones into areas where we wanted to operate 
aircraft to fight the fire, and they had to suspend operations.
    There needs to be consequences for people who do those 
sorts of things, and I expect this committee to work with the 
FAA to see if they have the authority to take proper action 
against these sort of people, or whether they need new 
authorities, and we need new regulations, so that we can divide 
between people who are using them responsibly, whether for 
recreation, or those who are using them responsibly and 
commercially, and those who are the minority, who are using 
them irresponsibly.
    I was called by a reporter last week. They said they expect 
1 million of these toy drones to sell for Christmas this year, 
1 million. How many of those million people have any idea--
obviously, a lot of them live in restricted airspace--what 
restricted airspace is, and whether or not they can operate the 
drone there? I don't think they know. So there also has to be a 
massive educational campaign, in part, which should be pushed 
forward and paid for by the manufacturers of these toys, who 
are profiting from their sale. With that, Mr. Chairman, I look 
forward to the testimony. Thank you.
    Mr. LoBiondo. Thank you, Mr. DeFazio. I want to thank our 
witnesses for being here today. They are Michael Whitaker, 
Deputy Administrator for the Federal Aviation Administration; 
James Hubbard, Deputy Chief of State and Private Forestry for 
the United States Forest Service; Captain Tim Canoll, president 
of the Air Line Pilots Association, International; Richard 
Hanson, director of government and regulatory affairs for the 
Academy of Model Aeronautics; Dr. Mykel Kochenderfer--am I 
correct there, Doctor? Thank you. Assistant professor of 
aeronautics and astronautics at Stanford University.
    Deputy Administrator Whitaker, you are now recognized for 
your statement.

TESTIMONY OF MICHAEL G. WHITAKER, DEPUTY ADMINISTRATOR, FEDERAL 
AVIATION ADMINISTRATION; JAMES HUBBARD, DEPUTY CHIEF, STATE AND 
  PRIVATE FORESTRY, U.S. FOREST SERVICE; CAPTAIN TIM CANOLL, 
PRESIDENT, AIR LINE PILOTS ASSOCIATION, INTERNATIONAL; RICHARD 
HANSON, DIRECTOR OF GOVERNMENT AND REGULATORY AFFAIRS, ACADEMY 
OF MODEL AERONAUTICS; AND MYKEL KOCHENDERFER, PH.D., ASSISTANT 
           PROFESSOR OF AERONAUTICS AND ASTRONAUTICS

    Mr. Whitaker. Chairman LoBiondo, Ranking Member Larsen, 
members of the subcommittee, thank you for the opportunity to 
appear before you today to discuss----
    Mr. LoBiondo. Excuse me, could you pull your mic a little 
closer?
    Mr. Whitaker. I will scoot closer.
    Mr. LoBiondo. Thank you.
    Mr. Whitaker. OK. To discuss the safe operation of unmanned 
aircraft.
    The popularity and variety of unmanned aircraft have 
increased dramatically in recent years. Many commercial uses 
are becoming commonplace today, including infrastructure 
inspection, surveying agriculture, and evaluating damage caused 
by natural disasters. UAS play an increasingly important role 
in law enforcement, firefighting, and border protection.
    At the same time, the demand for recreational drones has 
exceeded anyone's expectations. This demand is driven, in large 
part, by individuals who are completely new to the aviation 
experience. They are not necessarily the traditional model 
airplane operators, members of local clubs who follow safety 
guidelines and rules. These new entrants are often unaware that 
they are operating in shared airspace. The proliferation of 
small and relatively inexpensive UAS presents a real challenge.
    To successfully integrate unmanned aircraft into our 
airspace, we must integrate these new operators into our 
aviation safety culture. We want people to enjoy this new 
technology, but we want to make sure they do it safely. This 
requires education, as well as creative and collaborative 
public outreach.
    This is why we have joined with our industry partners, 
including several seated at the table today, to launch the Know 
Before You Fly campaign. This effort provides UAS operators 
with the guidance they need to fly safely, and is raising 
awareness of where they can and cannot fly.
    We also have an ongoing No Drone Zone campaign. This 
campaign reminds people to leave their unmanned aircraft at 
home during public events, such as football games and, most 
recently, the Pope's visit to several major U.S. cities.
    However, we firmly believe that education and enforcement 
must go hand in hand. Our preference is for people to 
voluntarily comply with regulations, but we won't hesitate to 
take strong enforcement action against anyone who flies an 
unmanned aircraft in an unsafe or illegal manner. When we 
identify an operator who endangers other aircraft, or people 
and property on the ground, we will work with our local law 
enforcement partners to prosecute these activities.
    To date, the FAA has investigated hundreds of incidents of 
UAS operating outside of existing regulations. Earlier this 
week the FAA proposed a $1.9 million civil penalty against a 
company that knowingly conducted dozens of unauthorized flights 
over Chicago and New York. This sends a clear message to others 
who might pose a safety risk: Operate within the law, or we 
will take action.
    We recognize that the technology associated with unmanned 
aircraft is continuing to evolve. This is also true for the 
many technologies that could further advance the safety and 
capabilities of these aircraft. Earlier today we announced a 
research agreement to evaluate technology that identifies 
unmanned aircraft near airports. Working with our Government 
and industry partners, we will assess this capability in an 
operational environment without compromising safety.
    We recognize, too, that our regulatory framework needs to 
keep pace with technology. The FAA Modernization and Reform Act 
of 2012 laid out a framework for the safe integration of 
unmanned aircraft into our airspace. The FAA has taken a number 
of concrete steps toward accomplishing this goal.
    A key component of these efforts is finalizing regulations 
for the use of small, unmanned aircraft. Earlier this year, we 
proposed a rule that would allow small UAS operations that we 
know are safe. The rule also meets the majority of current 
commercial demand. The FAA received more than 4,500 public 
comments on this proposal, and we are working to address those 
as we finalize the rule.
    The rulemaking approach we are using seeks to find that 
balance that you referred to, Mr. Chairman, that allows 
manufacturers to innovate while mitigating safety risks. We 
also recognize the need to be flexible and nimble in how we 
respond to the emerging UAS community. As technologies develop, 
and as operations like beyond line of sight are researched, we 
want to be able to move quickly to safely integrate these 
capabilities.
    While we have made substantial progress on UAS in recent 
months, we still have more work to do. Recently, the FAA 
elevated the importance of unmanned aircraft issues within the 
agency by selecting two seasoned executives to oversee our 
internal and external integration efforts. Major General Marke 
Gibson, U.S. Air Force (Retired), and Earl Lawrence, who most 
recently served as manager of FAA's Small Airplane Directorate. 
Both of these gentlemen are seated behind me with me today.
    The FAA has a long history of integrating new users and 
capabilities into our airspace, and we are well equipped to 
apply this experience in the area of unmanned aircraft. I am 
proud of the team we brought together to accomplish this, and 
of the approach we are taking to ensure America's aviation 
system remains the safest in the world.
    Thank you, and I am happy to answer any questions you may 
have.
    Mr. LoBiondo. Thank you, Mr. Whitaker.
    Mr. Hubbard, you are now recognized.
    Mr. Hubbard. Thank you, Mr. Chairman, members of the 
committee. The Forest Service, just as a little bit of 
background of how we get into this, our latest fire season we 
responded to 47,000 fires. We had 9 million acres of affected 
territory. We mobilized 27,000 people, with another 5,000 in 
reserve for initial attack.
    The future of wildland fire, especially in the West, is 
probably not going to be much different than that. It--the 
vegetative conditions, the drought, and the nature of our 
forests is going to be prone to this kind of fire for some time 
to come.
    Our primary initial attack firefighting tool is aviation. 
We send air tankers as fast as we can. They don't put fires 
out, ground troops do, but they are an initial attack response. 
They also support large fire, and our priority is always life 
and property, so that gets the most attention.
    Unmanned aviation systems are also useful to us. In 
firefighting they help us with situational awareness, they help 
us with communication, they help us with monitoring and 
tracking fire behavior, all safety issues that are valuable.
    Our challenge is the incursions. I wouldn't say that our 
statistics are significant compared to everybody else's, but 
the trend is a little bit worrisome. In 2014, we only had four 
incursions. In 2015 we had 21 incursions. So it is on the rise. 
Twelve of those incursions stopped those initial attack 
operations. That is not something that we welcome.
    And it is further complicated because we are talking about 
aircraft that operate in a complex environment. We are talking 
about rotary aircraft, as well as fixed-wing aircraft over the 
fire at the same time. We are talking about 150 feet of 
operational altitude. We are talking about, prior to, temporary 
flight restriction. So it is not a simple matter.
    We don't presume to know how to address this. We rely on 
the FAA. But the Department of the Interior and the Forest 
Service and the State firefighting organizations all worked 
together with FAA and the Department of Homeland Security on 
the technology and how to work our way through this.
    In the meantime, public education is important. When we 
have fire, flames, and smoke in the air, we do get some media 
attention, and we incorporate into that as a regular message 
that, if you fly, we can't. So, trying to get that kind of a 
word out so people understand. A lot of this is from those who 
don't understand.
    So, our risks are significant, we believe, if something 
were to happen in the air with a drone and our aircraft. Our 
frequency is not that much, but the trend would--is worrisome. 
We worry about the risk of identification and avoidance, so a 
few problems to solve.
    We also recognize that this is--UAS is a valuable tool that 
we also take advantage of. Be happy to answer any questions.
    Mr. LoBiondo. OK, thank you, Mr. Hubbard.
    Captain Canoll, your statement, please.
    Mr. Canoll. Thank you, Chairman LoBiondo, Ranking Member 
Larsen, and the subcommittee, for the opportunity to be here 
today.
    ALPA [Air Line Pilots Association, International] 
recognizes that unmanned aircraft systems, or UAS, can allow us 
to perform certain tasks more efficiently and safely than 
conventional aircraft. We also understand the value of 
advancing America's competitiveness in these technologies. That 
said, ALPA's overarching concern is one of safety.
    This summer the FAA released hundreds of pilot reports on 
UAS sightings. The FAA numbers show more encounters are 
happening more often. Noncommercial and recreational UAS 
operations appear to be the primary source. Here are a few 
examples: pilots operating an all-cargo flight near San Jose 
reported a close encounter with a UAS flying 60 to 70 feet to 
the left of the aircraft. They subsequently described it as 
four-bladed and X-shaped. As an airline captain, I can tell you 
if a pilot is able to report this level of detail, the UAS is 
way too close.
    Also, multiple UAS were recently reported by three 
airliners on final approach to Newark Liberty International 
Airport. In April, a pilot reported a blue metallic drone pass 
about 100 to 200 feet under the left wing of the airliner 
arriving at Seattle-Tacoma International Airport.
    For pilots, these UAS literally appear out of the blue. 
They are much smaller than other aircraft. Some UAS do not have 
lights. They have limited contrast against visual background, 
and they move much more slowly than airliners. As a result, 
these UAS are extremely difficult to see in flight.
    [Video shown.]
    Mr. Canoll. In this example, you can see how the white 
color of the UAS blends in with the sky. Imagine trying to 
detect this UAS while flying at 280 miles an hour.
    The number of near-miss events that have occurred in such a 
short period of time demonstrate the risk. The growth in the 
use of these systems shows the hazards will only increase. The 
United States must put safety first. The FAA is making 
progress, but we need to do more. While work on the final rule 
regarding small commercial UAS operations is encouraging, the 
agency must immediately address all UAS operations, including 
recreational and noncommercial.
    ALPA's recommended plan, action plan, has four elements. 
Number one, education. Anyone who plans to fly these UAS must 
understand the aircraft, the airspace, and the other aircraft 
that share it. For those who want to do the right thing, there 
are resources such as the Know Before You Fly campaign, of 
which ALPA is a supporter. But we also need to reach, at the 
point of sale, those individuals who may not yet appreciate the 
danger. Individuals flying these UAS for recreation must adhere 
to the FAA guidelines, including any minimum age requirements, 
maintaining line of sight, and flying under 400 feet.
    Number two, registration. Gathering contact information 
about the UAS purchaser will not only allow authorities to 
immediately identify the owner, but it will also drive home the 
serious nature of operating these vehicles.
    Number three, technology. If these UAS operate in the 
airspace intended for airliners, or they could unintentionally 
end up there, airline pilots need to be able to see them on 
their cockpit displays, controllers need to be able to see them 
on their radar scopes, and the UAS must be equipped with active 
technologies to ensure it is capable of avoiding a collision 
with manned aircraft. If regulations restrict the UAS from 
operating in a particular location, the UAS must have 
technology that cannot be overriden to limit its operations. 
Penalties for those who deliberately bypass this technology 
must be significant.
    Number four, penalties and enforcement. UAS pilots must be 
properly trained and understand the consequences of exceeding 
the operating limitations and the possibility of malfunctions. 
Anyone deliberately flying a UAS recklessly should be subject 
to criminal prosecution. Anyone who is operating a UAS and 
unintentionally deviates from rules and limits should be 
subject to civil penalty. ALPA welcomes the FAA's recent 
proposed civil penalty against a UAS operator for endangering 
the safety of the airspace around New York City and Chicago.
    With this four-part action plan, our country can capitalize 
on the economic opportunities offered by these UAS while 
maintaining safety. Given the safety risks highlighted by the 
FAA's recent release of pilot reports, ALPA urges Congress to 
direct the FAA to regulate UAS operated for recreation and 
hobby. ALPA stands ready to help the FAA develop these 
regulations as part of realizing our shared goal of ensuring 
the safety of air transportation for all who depend on it. 
Thank you, sir.
    Mr. LoBiondo. Thank you, Captain.
    Mr. Hanson, you are recognized.
    Mr. Hanson. Thank you for the opportunity to participate in 
today's hearing. I am speaking on behalf of the Academy of 
Model Aeronautics, the world's largest organization 
representing more than 180,000 members who fly small, unmanned 
aircraft systems, or model aircraft, as we call them, for 
recreational and educational purposes.
    For nearly 80 years, AMA has been dedicated to promoting 
and preserving the hobby of flying model aircraft, while 
ensuring our members adhere to a strict set of community-based 
safety guidelines. Our National Model Aircraft Safety Code has 
been recognized by Congress and State legislatures as a safe 
and effective means of managing hobbyists. These guidelines 
have evolved to accommodate new technologies, new modeling 
disciplines, and, most recently, address the personal use of 
small UAS. Our membership is a cross-section of America. It is 
a diverse community of youth and adults that range from the 
ages of 6 to 96.
    As you know, there is an unprecedented growth in the 
industry. According to the Consumer Electronics Association, 
sales in the U.S. this year will reach 700,000 units. The 
growth of the technology and the supporting industry is 
exciting, and is beneficial to our economy and to our society. 
But, as with any emerging technology, there are policy 
considerations, such as balancing safety, sustaining industry 
growth, and capturing the public benefits.
    Before I touch on these points, I want to take a step back 
and discuss the current landscape. We have been very concerned 
about recent headlines that portray drones as clogging U.S. 
airspace, snarling air traffic, and giving the FAA fits. That 
is why the AMA [Academy of Model Aeronautics] closely analyzed 
the 764 records of drone sightings released by the FAA this 
summer. Our analysis reveals a more complex picture than 
headlines would suggest.
    Indisputably, there are some records of near misses that 
represent actual safety concerns. And more needs to be done to 
address those. But we found that the number of near misses 
appears to be in the dozens, not in the hundreds, based on 
explicit notations in the FAA records.
    So, the most serious incidents include two actual crashes 
involving Government-authorized military drones. There are also 
sightings of public entities and commercial operators that may 
be flying with or without authorization. And the most recent 
sighting or incident where the FAA has assessed a fine to a 
commercial operator indicates that the operations occurring in 
our airspace go well beyond hobbyist activity. And others may 
not even be drones, but rather, balloons, birds, model rockets, 
and mini blimps.
    There is some useful information in the FAA's data set, but 
this data is only helpful if the FAA, the media, and others 
take the time to analyze and accurately categorize it. AMA has 
worked closely with the FAA for many years, and we are 
committed to a continued partnership to promote model aircraft 
and consumer drone safety. And while the FAA needs to do a 
better job of presenting the data, AMA has several 
recommendations to ensure the safety of our Nation's airspace.
    One of the most immediate and helpful things the FAA can do 
to increase safety is to finalize and implement the small UAS 
rules. As they are currently written, the proposed rule will 
enhance safety by requiring everyone who wants to fly to either 
participate in the safety programming of a community-based 
organization like AMA, or follow new FAA rules for operators 
for commercial purposes. Once implemented, the new rules will 
help provide oversight and education for the UAS operators.
    At the same time, the FAA should step up enforcement as 
they have currently demonstrated, and work more closely with 
local law enforcement to pursue bad actors. There are existing 
Federal prohibitions against careless and reckless operations, 
and many jurisdictions have criminal laws in place.
    In addition, promoting safety through education is another 
important step we can all take. AMA members know where and 
where not to fly, and do so safely and responsibly. 
Unfortunately, many newcomers to UAS may not be aware of these 
safety considerations.
    That is why the AMA, in partnership with the Association 
for Unmanned Vehicle Systems International and the FAA, 
launched the Know Before You Fly campaign during the last 
holiday season. Unmanned aircraft systems are going to be a 
reality within our communities, and it is a community approach 
that is going to best address that. This new campaign works to 
put important safety information and flying tips in the hands 
of the newcomers. Many organizations from the manned and 
unmanned communities have joined the campaign, including the 
Air Line Pilots Association that is here with us today.
    Finally, it has been suggested that technology itself can 
be the solution. And, to the industry's credit, many of the 
leading companies that manufacture UAS for both commercial and 
recreational purposes have developed and implemented 
technologies that address some of the concerns. While 
technology can be a useful tool for situational awareness, it 
is no substitute for education.
    In the aviation world, there is a longstanding tradition of 
putting the responsibility for safety in the hands of the pilot 
and the person operating the aircraft.
    I thank you again for this opportunity to participate, and 
I look forward to answering any questions you might have.
    Mr. LoBiondo. Thank you, Mr. Hanson.
    Dr. Kochenderfer?
    Dr. Kochenderfer. Chairman LoBiondo, Ranking Member Larsen, 
and members of the subcommittee, I am a professor in the 
Department of Aeronautics and Astronautics at Stanford 
University, and I am a third-generation pilot. My research for 
nearly 10 years has involved statistical estimation of risk and 
the development of technology for enhancing aviation safety.
    Personally, I find the rapid acceleration of unmanned 
aircraft technology to be the most exciting recent development 
in the field of aeronautics. The proliferation of unmanned 
aircraft has made aviation accessible, and has inspired a 
generation of eager university students in a way that we 
haven't seen for a long time. The growing popularity of these 
vehicles has also raised concern about safety.
    So how do we go about measuring and analyzing these risks? 
To answer this, we must understand that risk is determined by 
both the likelihood and the severity of different hazards.
    First, let us consider severity. A sufficiently large drone 
can damage any part of an aircraft. But one of the most severe 
hazards is engine ingestion. The US Airways flight in 2009 was 
struck by multiple Canada geese. Of course, a flock of 
sufficiently large drones could cause similar damage. However, 
flocks of drones are rare, and most consumer drones, just like 
the DJI Phantom, are less than one-third of the weight of a 
Canada goose.
    I am not aware of any engine ingestion testing of the 
Phantom, but it is certainly conceivable that it would cause 
some degree of damage to an engine, but probably not of the 
severity that occurred with the US Airways flight.
    What is the likelihood of a midair collision involving a 
drone? In order for a collision to occur, the drone has to be 
at the same altitude and the same geographic location as 
another aircraft. An analysis of radar data indicates that 
there are large areas of the country where the risk of 
encountering another aircraft is negligible. However, there are 
portions of the airspace where the likelihood of a collision is 
orders of magnitude more significant.
    There are several technologies that can help mitigate risk. 
Altitude limits can be implemented fairly reliably, and only 
require a barometric altimeter. Implementing geofencing is more 
difficult, because it relies on an up-to-date database of 
geofence locations and accurate GPS location. But the safety 
risks can be significantly reduced with such technology.
    I am not a policymaker, but I believe that it would be wise 
to set altitude limits for drones capable of flying above 400 
feet. The cost to add this safety feature, if it doesn't 
already exist, is fairly negligible. Most drones capable of 
flying above 400 feet already have an altimeter.
    One of the first things a new user might do after opening 
the box is to see how high the drone can go. This altitude 
limit would not ensure safety or prevent interference with 
firefighting on its own, but it will certainly help naive users 
and discourage reckless users. Preventing a conscientious user 
like a firefighter from overriding an altitude limit is 
problematic. The exact approach for overriding limits is still 
being thought through by industry, and I believe it is too 
early to mandate a particular mechanism.
    Altitude limitations in geofences are near-term risk 
mitigation measures, but it is becoming clear that some kind of 
infrastructure is needed to facilitate the integration of 
commercial drones into the airspace. NASA Ames, in 
collaboration with industry and academia, has been pursuing the 
development of the UAS traffic management system. However, 
there is still tremendous research to be done.
    When flying in the same airspace as manned aircraft, a 
sense-and-avoid system is likely to be necessary to help 
prevent collision. The FAA has successfully flight-tested the 
ACAS X system [Airborne Collision Avoidance System X] for large 
drones, and some of the technology may extend to smaller 
drones.
    In conclusion, the growing popularity of commercially 
available drones presents a risk that should not be ignored. 
Education should play a major role in risk reduction. In 
addition, there are technologies that can be easily implemented 
by manufacturers to help prevent inadvertent airspace 
violations. It is in the interest of the drone industry to 
implement these safety measures. It is in the interest of our 
Nation to support the research needed to ensure aviation safety 
as our technology evolves.
    Thank you for the opportunity.
    Mr. LoBiondo. Thank you, Doctor.
    Mr. Whitaker, in addressing illegal UAS flights, do you 
feel there are any additional authorities that the FAA believes 
Congress can or should provide to curtail or penalize wrongful 
operation of UAS?
    Mr. Whitaker. We are currently doing a review of our 
authorities internally, with DOT, and also with other agencies. 
But one of the challenges with this issue is actually locating 
the UAS operators. It is less a question of authority or 
magnitude of penalties as it is actually locating the 
operators.
    If you look at these pilot reports, they tell us where the 
UAS is, but they don't tell us where the operator is. If you 
contrast that with laser strikes, the pilot usually knows 
exactly where that strike is coming from. So one of the biggest 
challenges we are having is locating the operators in the first 
place, which is why our emphasis has been on education and 
beefing up that methodology.
    Mr. LoBiondo. And also for you, Mr. Whitaker, according to 
new reports, Government agencies and private companies have 
acquired and deployed drone detection systems that utilize some 
combination of radio frequency, thermal detection, video, and 
audio technology that can immediately locate the UAS and its 
operator.
    Is the FAA considering similar detection technologies as 
part of the agency's efforts to mitigate the risk of a midair 
collision between a UAS and manned aircraft?
    Mr. Whitaker. We announced today a new research partnership 
that goes just to that issue, that deploys a technology at 
airports that allows you to survey the area within 5 miles of 
the airport and detect radio signals from UAS. So that 
technology is going into testing, and it is one of a variety of 
technologies that we are looking for to detect drones in the 
airport environment.
    Mr. LoBiondo. So you will assess the two testing programs 
to determine how you proceed from there?
    Mr. Whitaker. We will assess the results of that 
technology, as well as geofencing and some other technologies, 
to try to develop an approach, again, in conjunction with other 
agencies that have a security issue involved here, as well.
    Mr. LoBiondo. So the pilot programs that you announce 
today, can you give us any timelines on these, of when they 
will be operational at those locations?
    Mr. Whitaker. The technology is an existing technology, so 
we--there hasn't been an announcement of location or timeframe 
yet, but that should be coming shortly.
    Mr. LoBiondo. OK. Mr. Larsen?
    Mr. Larsen. Mr. Whitaker, in previous meetings I have had 
within the office, private industry technology folks have 
suggested to me to--that they require registration of the 
product that individuals purchase, and then share that 
information with the FAA as a way to track or have a database 
where you can track use, in the event of a violation. Have you 
heard that from private industry?
    Mr. Whitaker. We have a number of initiatives that private 
industry has put forth to help in this effort, including 
informational paperwork in the packaging itself. The Secretary 
himself has indicated that he thinks registration may be one of 
the answers to part of this problem, and we are evaluating that 
as an option for all UAS.
    Mr. Larsen. Yes, in conjunction with private industry, 
because most times, when you buy a piece of technology these 
days--or if you buy a toaster--you register your product online 
for warranty purposes, as a for instance, so people do this all 
the time. But----
    Mr. Whitaker. Yes.
    Mr. Larsen [continuing]. The concept that you would then 
share that--that would be shared, though, with an agency might 
cause some caution. But this is an idea that has come out of 
private industry.
    Mr. Whitaker. And I think we would have to work closely 
with industry to decide the best way forward for that. We would 
not be set up to take this level of registration data, and we 
would want to make sure----
    Mr. Larsen. Yes.
    Mr. Whitaker [continuing]. It is accessible, if we do that, 
and also that it can be used for law enforcement purposes.
    Mr. Larsen. Right, right. Can you talk a little more about 
coordination between agencies, maybe with USFS [U.S. Forest 
Service]?
    Or an example that happened in my district, we have orca 
pods in the Puget Sound and near the San Juan Islands. They are 
a big driver of tourism, of the tourism economy up there. But 
people have to comply with the Marine Mammal Protection Act. 
U.S. Fish and Wildlife fined an aerial photographer for 
violating the MMPA--that is, getting too close to the orca 
pods, which then--he put this aerial photography and video up 
on his Web site to advertise himself, basically showing 
everyone how he violated MMPA, and then was fined for that.
    Is that something that runs across your desk at FAA, or can 
you talk a little bit about how you coordinate with agencies?
    Mr. Whitaker. We have a large number of ways that we 
coordinate. Under the DOD [Department of Defense] 
authorization, there is an EXCOM [executive committee] that 
meets on UAS that includes DHS [Department of Homeland 
Security], DOD, FAA, and NASA. We have an interagency group 
that meets quarterly that includes those agencies plus Commerce 
[Department of Commerce] and others to talk about NextGen, as 
well as UAS. We have a facility that we run at headquarters 
that is a 24/7 monitoring of events in the NAS [National 
Airspace System], and we coordinate with law enforcement 
agencies through that. And DHS has taken the lead on security 
issues focused on the Capital, but also airport environments. 
And they run that, and we participate in that. So there are 
really a huge number of fora that we participate in to have 
that interagency coordination.
    Mr. Larsen. Yes, good.
    Mr. Hanson, I have had a chance to meet a couple of your 
members. Your district XI vice president is Chuck Bower and 
then Ken Woblick is the president of the Whidbey Island Radio 
Control Society there, and they have attended a few town halls. 
So I want to commend you on your grassroots organizing on this 
issue.
    Mr. Hanson. Thank you.
    Mr. Larsen. But on that perspective, from a local 
perspective, how would your members look at or--look at 
registration of UAS purchases, and using that as a database for 
enforcement, in the event of an incursion, a potential 
violation?
    Mr. Hanson. Well, I believe our members understand that 
registration at some level certainly makes sense. And I think 
it needs to be understood that there is a broad spectrum of 
platforms that are being called drones.
    Mr. Larsen. Right.
    Mr. Hanson. And the vast majority--I am going to guess 
somewhere around two-thirds--of the numbers that we have been 
hearing today are really what we would put in the toy category.
    Mr. Larsen. Yes.
    Mr. Hanson. They have a very short lifespan, and they have 
limited ability to accommodate the type of technology that we 
are talking about. So, as long as we are identifying the proper 
threshold where registration starts to make sense, I think they 
would be very acceptant of that.
    It is also important to know that they are used to a 
similar type of process within our community. Every member is 
required to put their AMA number or their name and address 
within their aircraft. That is for a number of reasons. 
Hopefully, if it gets lost, we are hoping somebody will return 
it to us. But, beyond that, it also helps identify the owner-
operator for accountability purposes.
    Mr. Larsen. Yes, I will just--and on that point, I was 
noting yesterday with staff that the crabbing industry is big 
in Washington State, as well, and you have got to put your name 
and address and a contact number on your crab pot buoy, in case 
it gets loose, or in case someone steals it. But you have to do 
this, because you need to be held accountable. And so it is the 
same kind of deal?
    Yes, Mr. LoBiondo, did you have a question for me?
    [Laughter.]
    Mr. LoBiondo. You could have drones monitor the crab pots.
    [Laughter.]
    Mr. Larsen. That is next.
    Mr. LoBiondo. That is next. Thank you, Mr. Larsen.
    Mr. Young?
    Mr. Young. Thank you, Mr. Chairman, and the ranking member, 
for holding this hearing. You know, the University of Alaska in 
Fairbanks is named one of the designated area test sites for 
the UAS. But the frustration they have is the certification of 
authority process, Mr. Whitaker.
    Is the FAA doing anything to shorten this process? They 
have been granted, but it takes a long, long time. Why does it 
take that long? Are you improving that time factor?
    Mr. Whitaker. We are, sir. We have taken several steps.
    With respect to the test sites, we initially issued a 
blanket certificate of authorization for operations up to 200 
feet. We recently, last month, increased that to 400 feet. So 
that really streamlines the paperwork process pretty 
dramatically. There may still be some exemption requirements, 
but they should be much fewer now. And the exemption process 
itself we have streamlined, but we do a safety analysis on each 
of the applications, so that does take some time. But it should 
be much more streamlined now.
    Mr. Young. Well, they are very complimentary to your 
efforts, but they just want to expedite the process. Now it is 
taking 1 year, 2 years sometimes. And we need to solve that 
problem. That is number one.
    Mr. Whitaker. Yes, most of the applications have been 
eliminated now for the test sites. But when they do come, they 
should be measured in days, certainly, not months or years.
    Mr. Young. Captain, what kind of equipment do you have on 
your aircraft for collision avoidance? You say you can't--you 
know, if you have to look for this drone, don't you have 
equipment in the airplane that can identify an object in front 
of you quicker than just by eyesight?
    Mr. Canoll. So, as demonstrated by the video, visual 
acquisition is very, very difficult in any aircraft.
    Mr. Young. Even with the radar system, the collision 
avoidance----
    Mr. Canoll. Well, we do have terminal collision avoidance 
systems in the aircraft, commonly referred to as TCAS. But they 
are equipped to operate to highlight other aircraft who are 
similarly equipped. So if the unmanned aerial system does not 
have a transponder on it, S-coded transponder, or isn't ADS-B 
[Automatic Dependent Surveillance-Broadcast] equipped, it will 
not show up on our displays in the cockpit at all.
    Mr. Young. Mr. Hanson, how did you get in such a good 
position, as far as model airplanes? I mean, for a while, you 
were under attack, because I remember that when I was chairman 
of this committee. And now, how did you achieve that? What can 
they do in this unmanned aircraft to make that same strides 
forward?
    Mr. Hanson. I think the significant differentiation between 
our community and this newer community of users is the approach 
that we take to the hobby. I mean people get into this hobby, 
at least traditionally, because of their interest in aviation 
and their interest in learning how to build, fly, and operate 
their aircraft.
    The newer communities are attracted more by the technology 
and the functionality of the aircraft, something it can do, 
such as taking pictures. In some cases it is not different from 
the smart phone. I mean they look at it as just an extension of 
your camera.
    So we have a different mindset within this community, but, 
in our opinion, it does all boil down to an educational process 
that, as long as they understand the means by which they can 
operate safely and responsibly, we believe that the American 
citizen will do that. Not to say there aren't those individuals 
out there that would deliberately act irresponsibly, but until 
we can assuredly say that the consumer has that information in 
hand, it is a little hard to assess the mentality and the 
deliberate acts of the others.
    Mr. Young. Doctor, technology. You are an expert in that 
arena, a pilot. What would happen if we required the 
manufacturers to put a kill button in the unmanned aircraft if 
they got within a certain many feet of an airport? That is 
really what we are here for, the danger to the airplane that is 
flying, and the pilot who is flying. Could there be technology 
that way?
    Because it is--most of these are battery-operated, correct? 
Very few of them are run by fossil fuels.
    Dr. Kochenderfer. Yes, I would say the majority of the 
700,000 or so that will be coming out are battery powered.
    Mr. Young. Sort of like electric fences--I drive my golf 
cart the other day, and you can't go close to the green because 
they have this communication that stops the golf cart. So why 
couldn't the technology be applied to any of these hobby drones 
where the thing dies?
    Dr. Kochenderfer. I think that is what they are aiming at 
with geofencing. But you probably don't want it to die 
completely, because then it will fall out of the air and maybe 
hurt someone.
    Mr. Young. Well, you lose your drone, you won't do it 
again, I guarantee it.
    Dr. Kochenderfer. Yes.
    Mr. Young. But I am just looking--the technology.
    And, Mr. Chairman, if I may say, you at this table help us 
write this legislation. Because when we write legislation, 99 
percent of the time it is screwed up. They don't really 
understand the problem unless we get input from those people 
directly--the airline, the FAA, the Government agencies, and 
those that have knowledge on how it works. So we have to use 
your input, Mr. Chairman. And I say this from experience of 44 
years, that most of this legislation we have written doesn't 
work. And then, when the regulations come in, then we are all 
screwed up.
    So I am just suggesting we use this expertise. Either solve 
this problem--a danger. That is really what we are here for. 
Mr. Chairman, I yield back.
    Mr. LoBiondo. Thank you.
    Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman. I was pleased to read 
that the FAA is going ahead with CACI [Conditions AMEs Can 
Issue]. I met with them earlier, and they were going to test 
their technology in Virginia this summer. It has been used in 
military applications. As they explained it to me, they can 
pinpoint the operator. That is good. They can do numerous 
things. They can force the drone to land, they can force it to 
go back to the operator. Or, in the case of hostiles, they 
deliver something to the operator.
    So, the question, you know, would be, you know, how quickly 
are we going to move ahead with this? I am very disturbed at 
the 24 incursions on fires. How many of those people were 
prosecuted, or were even identified?
    Mr. Whitaker. I don't have statistics on how many. But, as 
I said before, it is very, very difficult to track them down, 
just by the nature of the UAS operation.
    Mr. DeFazio. Right. So--and what about registration? You 
have heard that mentioned. You said you couldn't handle the 
volume. I mean were you just talking about an online database 
or something? What is the barrier to requiring registration?
    Mr. Whitaker. Well, there is interagency discussion going 
on about how that would be used, and what the logistics of it 
would be, what would be the best tool for that, whether it is 
at point of sale, how you verify ID, things of that nature. So 
there is some digging into the technicalities of that that is 
going on now.
    Mr. DeFazio. Well, I would hope that doesn't take too long. 
I mean I already identified that one case in my hometown, where 
the police would really like to know who the person--the 
Peeping Tom was operating that drone, but we will never know.
    So--and Mr. Young mentioned the idea that just--I mean you 
wouldn't want to necessarily disable them and have them drop 
out of the sky, but they can also direct them to another place. 
And if we have designated safe sites around airports or 
critical airspace, and we use this technology, we could direct 
the drones there and say, ``Oh, come get your drone. We will be 
waiting.''
    So, I mean, this is a very, very--you know, I have been 
through almost 29 years in this committee, and we used to talk 
about the tombstone mentality at the FAA. And you know, I am 
very concerned about what this means to the safe operation of 
civil aviation in this country.
    And beyond that, I am particularly concerned that it will 
also bring to a halt the legitimate commercial development of 
drones. I mean we take down one plane with one of these toys 
that someone is operating irresponsibly, or a terrorist uses, 
we are going to--this industry is going to grind to a halt 
altogether. We need to get a handle on this quickly.
    Captain, do you have anything you want to add? Because, I 
mean, it was--Mr. Hanson, I--you know, I am sympathetic to the 
model folks. I used to build those things out of balsa wood 
with the little piston engines that didn't work very well, and 
all that stuff. So I know that whole area. But we are talking 
about a whole new generation of people, the same people for 
whom the words ``cell phone'' and ``etiquette'' don't go 
together are now getting their hands on these drones, and I am 
worried about responsible operation. Captain?
    Mr. Canoll. No, I agree. And to differentiate, I thought it 
was an important point Mr. Hanson made about his members, who I 
generally believe are responsible operators, and those who are 
not part of his community who are operating these vehicles. 
They do have batteries in them, and these are dense, heavy 
metal pieces that will wreak havoc on aircraft.
    When it hits a transport category aircraft, when it hits 
one, there is going to be a significant event. A significant 
event. Whether it hits the windscreen, some piece of the flight 
control system, or is ingested in the engine, this is going to 
be a significant event. And for the flightcrew, it is going to 
be a very challenging event to save the aircraft.
    Mr. DeFazio. OK. Anybody want to comment on that?
    [Laughter.]
    Mr. Canoll. It is not my intent to scare anybody here 
today----
    Mr. DeFazio. No----
    Mr. Canoll [continuing]. But it is a significant event. OK, 
so an accident is never the result of a single episode. You 
can't point to any particular accident and say, ``That was the 
sole cause of that accident,'' and I believe this is the same 
thing.
    When we look at all the risks that we deal with in 
commercial aviation on a day-to-day basis, and we have to 
assign risks to each element of it--weather, traffic, 
communications, security within the cockpit, cybersecurity--we 
look for mitigations on every single element of that risk. This 
is another element to the risk chain.
    And should it happen at a time when something else is going 
wrong, we are already dealing with a possible flight control 
malfunction, or a challenging communications or weather 
situation, and then we hit the drone, in some sort of--and 
always in a critical phase of flight, down below 10,000 feet, 
which is the highest likelihood of contact, that is when we 
have the highest risk of an actual accident.
    And, you know, I think if you can't point to a single 
solution to this problem, it has to be a layered effect.
    Mr. DeFazio. OK, thank you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Peter.
    Mr. Mica?
    Mr. Mica. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Mr. Whitaker, what is today's date?
    Mr. Whitaker. Sir, it is the 7th of October.
    Mr. Mica. What year?
    Mr. Whitaker. 2015.
    Mr. Mica. And the legislation that we passed in 2012, the 
FAA Modernization Reform Act, had a directive to FAA. And what 
deadline did it set for you to finish the work that was 
assigned in the law on drones?
    Mr. Whitaker. September 2015, sir.
    Mr. Mica. So we are behind schedule, obviously. If you 
review the record, when we passed this in 2012--and I believe 
that was February. Was it, staff? Yes. By the next year, 2013, 
you had completed the plan that is also required under the law, 
which was a good step.
    You didn't propose the rule until January 20th of this 
year, right?
    Mr. Whitaker. That is correct, sir.
    Mr. Mica. And you have had--the rule came out in February, 
so you have had February, March, April, May, June, July, 
August, September. We are just into October, so you have had 8 
months to finalize that rule, and now you are saying that--and 
the rule--does the real rule just deal with the small aircraft?
    Mr. Whitaker. Small UAS under 55 pounds.
    Mr. Mica. Under 55 pounds. Because I think we allowed a 
differentiation between small and large.
    And you--at least the testimony I have heard is some time 
in 2016. Can you be more specific with ``some time''?
    Mr. Whitaker. So the comment period was open until April of 
this year. We have had over 4,500 comments.
    Mr. Mica. But the ``some time'' in 2016----
    Mr. Whitaker. And we are adjudicating those comments, and 
our internal objective is to get the rule out of FAA by the end 
of this year, and it will go through the review process at DOT 
and OMB [Office of Management and Budget]. And last time you 
and I discussed this----
    Mr. Mica. February, March, April?
    Mr. Whitaker. Last time you and I discussed the point, we 
agreed on the date of June 17th, and I think that is still a 
solid date, and we should be able to beat that.
    Mr. Mica. So not until next June?
    Mr. Whitaker. It should be in the first half of next year.
    Mr. Mica. What about large?
    Mr. Whitaker. So the development of large UAS integration 
is going to depend, in large part, on commercial demand, and 
also, in large part, on technology. So that will develop as the 
technology develops and the demand develops.
    Mr. Mica. Well, again, I am disappointed. What will 
probably propel this--maybe actually propel your schedule--is 
going to be a very serious accident, an incident. I can almost 
predict there will be one. There are just so many of these now 
flying, that it is almost inevitable that we have a drone hit 
an aircraft, and there will be, probably, injuries and 
hopefully not fatalities.
    And this--these drones are up to 55 pounds. I remember 
going to a testing center when they would throw, like, a 40-
pound frozen bird or something into an aircraft engine, and I 
saw what that did. These can do as much damage. And, you know, 
I don't need another test to show what would happen. But it 
probably will happen. Maybe that will speed things up.
    You have had how many incidents? You said aircraft with 
drones that were somewhat serious, is it 200, 400? Captain 
Canoll, do you know?
    Mr. Canoll. So we don't keep the records that the airline--
--
    Mr. Mica. OK. FAA, do you know how many have you had 
reported?
    Mr. Whitaker. We are at a rate of about 100 a month of 
pilot-reported----
    Mr. Mica. One hundred a month? That is 1,200 a year. And so 
far you have sighted about--there has been about 20 enforcement 
actions. Did I hear that?
    Mr. Whitaker. That involve civil penalties, yes.
    Mr. Mica. That seems very low.
    The other thing, too, is in your plan--and I haven't 
reviewed the pending rule--do you have a provision for 
requiring--and maybe you can't do this, maybe we have to do it 
by law, but hundreds of thousands of these are being sold. A 
simple warning that says that you can't fly this within so 
close to an airport at such a height, that is not on the--
required now on the sale of the unit. Is it in your proposal?
    And can you do that, and--or should we do that by law? 
Because I think just letting people know when they purchase one 
of these what their obligations are is important.
    Mr. Whitaker. We have been working with manufacturers to 
have information put in the package----
    Mr. Mica. Is it in your rule, proposed rule?
    Mr. Whitaker. The proposed rule deals with commercial 
operations.
    Mr. Mica. Yes.
    Mr. Whitaker. And the issue is, really, the amateur 
operators. So we have been working with manufacturers to have 
the information voluntarily included, and an increasing number 
are doing that now. But we would have to have a rule to mandate 
it, which, A, we are not authorized to do, and, B, would take 
too long. So our focus----
    Mr. Mica. So possibly----
    Mr. Whitaker [continuing]. Is the voluntary----
    Mr. Mica [continuing]. A law. Thank you, Mr. Chairman. 
Yield back.
    Mr. LoBiondo. Mrs. Kirkpatrick?
    Mrs. Kirkpatrick. Thank you, Mr. Chairman. My first 
question is for Mr. Hanson.
    In your statement you disagree with the FAA regarding the 
number of UAS near-miss reports with the FAA, that are received 
by the FAA. Does AMA have a data collection and analysis 
program underway to collect near-miss reports from UAS users or 
airline pilots? And how does AMA substantiate your statement, 
that the number of reports are actually much lower?
    Mr. Hanson. No, ma'am. AMA does not collect that data. We 
use FAA's list of pilot-reported and individually reported 
sightings of unmanned aircraft. And I think it is important to 
note that they didn't classify all of those as being what is 
termed ``near misses,'' or ``near midair collision.'' They were 
termed a very subjective term, as being ``close calls.'' And, 
again, that is subjective and undefined. And, to my knowledge, 
the FAA currently does not have a defined definition or a 
definitive definition of a near miss of a manned aircraft with 
an unmanned aircraft.
    So what we did in our analysis was to go strictly to the 
language in the sighting itself, and only pull out those ones, 
or looked at those ones where the person reporting the 
sighting, in their determination, called it either a near miss 
or indicated they had to take some type of evasive action.
    Quite honestly, there is a large number of the sightings in 
there that couldn't even be termed a ``near encounter'' of any 
kind, because it wasn't even identified clearly as being an 
aircraft.
    Mrs. Kirkpatrick. Do you have a suggestion for a definition 
of ``near miss,'' then, that should be standardized?
    Mr. Hanson. Well, if we are talking about a near miss 
between an unmanned aircraft and a manned aircraft, I believe 
that, before you create that definition, you will need to do 
some analysis of the environment that they operate in, and the 
types of vehicles that we are talking about.
    As the captain cited, we are talking about very slow 
moving, very small objects, that, when seen from the cockpit, 
it is very difficult to give it any type of relative value, in 
terms of size, speed, and even its intentions, in terms of 
where it is going to fly. So I think there needs to be some 
study done in terms of what actually would constitute a near 
miss, and that is probably more from the perspective of the 
pilot, in terms of when and where and how he would be able to 
identify that object and to appropriately take action to make 
sure there is not any type of airspace conflict.
    Mrs. Kirkpatrick. I would agree with you. If we are going 
to develop some commonsense policy out of this committee, we 
need to have good data upon which to do that. So thank you for 
your suggestion.
    My next question is for Mr. Hubbard. Mr. Hubbard, I 
represent one of the most forested districts in the country, 
although it is in Arizona. People don't think of Arizona as 
having that much forest.
    I am sure you are very familiar with the horrific wildfires 
we have, and we are really trying to do something with 
prevention. And so my question is a little bit different from 
just suppression. You know, how--what is the opportunity to use 
drones in fire prevention, and in healthy forests?
    Mr. Hubbard. They are very useful, in terms of collecting 
the information and what we are dealing with on the land. So 
that kind of overflight to give us a good assessment of what is 
out there, without taking all the time and expense to go find 
out on the ground, is very helpful to us.
    Mrs. Kirkpatrick. And then, specifically, back to 
suppression, how do you intend to use UAS in fire suppression 
efforts?
    Mr. Hubbard. Well, primarily, the situational awareness, 
keeping track of what is going on, where our crews are on the 
ground, how the fire is behaving, and making sure that nobody 
is in harm's way unnecessarily, and that we can have the right 
kind of communications with those crews, in case they need to 
move, and move quickly. It gives us a lot of advance warning.
    Mrs. Kirkpatrick. You know, we had a tragic situation with 
the Yarnell fire, where our firefighting crew did not know the 
direction of that fire, and it changed dramatically from what 
was being expected. Would UAS have been helpful to prevent that 
tragedy?
    Mr. Hubbard. That is a difficult one to say. I would have 
liked to have had it available.
    Mrs. Kirkpatrick. Thank you. I yield back.
    Mr. LoBiondo. Mr. Farenthold?
    Mr. Farenthold. Thank you very much.
    Mr. Canoll, you were talking about the need to register 
drones and enforcement and all. Would that be all drones, or 
are you just--is there some size limit, or some cutoff point at 
which you ought to be able to have a toy drone without having 
to turn your identity over to the Federal Government?
    Mr. Canoll. So it is an interesting question. And the way 
we approach it is more or less analyzing the capabilities of 
the vehicle, vis-a-vis altitude, range, speed, to see if they 
could actually end up in airspace shared with airliners.
    Mr. Farenthold. Like I can go on Amazon, and this is the 
best selling UAV [unmanned aerial vehicle], I guess, they have. 
It is $45.90. I can have it by Friday, because I am an Amazon 
Prime member, for free shipping. But the shipping weight is 1.1 
pound.
    Mr. Canoll. Right.
    Mr. Farenthold. And it has a range of 50 meters. I mean 
that is 165 feet. You are surely not saying that needs to be 
registered.
    Mr. Canoll. If it can fly to 1,500, 2,000 feet, yes, sir.
    Mr. Farenthold. But if it only has a range of 50 meters, it 
is only going to get, what, 165 feet. So you are only----
    Mr. Canoll. I am not sure if that range is being expressed 
as a lateral range, or if that is the transmitter range or the 
actual physical capability. Following lost link at full 
throttle, would it just continue to climb to 2,000, 3,000 feet?
    Mr. Farenthold. OK, and let's go over to the FAA.
    Mr. Whitaker, I have spoken to some folks in the UAV 
industry who have actually expressed an interest in working 
with you all on geofencing. Is there any way right now a UAV 
manufacturer can get a list of restricted airspace in a 
machine-readable format that they could integrate into their 
system?
    Mr. Whitaker. All of the information about airport airspace 
and restricted airspace is publicly available, and it is pushed 
out as part of the data that comes from FAA. And some of the 
manufacturers have already started to include geofencing 
technology in their products.
    Mr. Farenthold. So is there--so you are saying there is a 
standardized database that is updated regularly? I guess it is 
your Notice to Airmen?
    Mr. Whitaker. Yes, the charts are updated about every 2 
months, sort of in a formal structure, and then, in the 
interim, there are NOTAMs [Notices to Airmen] that are put out 
to give interim updates.
    Mr. Farenthold. And do you have any idea--so you all are 
able to get that computerized, yet you are talking about the 
inability to keep a database of registered owners. I mean that 
seems pretty simple: name, address, manufacturer, model, and 
serial number. I mean I could probably code that, you know, 
before we finish lunch.
    Mr. Whitaker. Yes, sir. And then we need to verify that the 
person's name is the person who is actually registering it, 
which creates some of the complication.
    Mr. Farenthold. All right. And let's talk a little bit 
about--is there a way to integrate these affordably into the 
air traffic control system by putting some transponder or 
something on there where the air traffic controllers or the 
ADS-B and moving aircraft can see them?
    Again, as this technology moves, it seems like you ought to 
be able to get that, basically, on a chip.
    Mr. Whitaker. So, with respect to amateur use, we really 
want to keep them out of the controlled airspace, if you will. 
So we want to keep them away from airports and under 400 feet, 
or, with the case of the small UAS rule, under 500 feet. I 
think there still is a question whether they shouldn't also be 
equipped with something that has a radio signal that allows us 
to track them otherwise.
    When you get to the larger UAS, anything that operates in 
the controlled airspace would have to be equipped with ADS-B, 
the same as an aircraft would after 2020. But certainly that is 
going to be necessary to have any kind of integration in the 
larger UAS.
    Mr. Farenthold. All right. So, finally, let's talk for just 
one second about the difference between recreational users and 
commercial users. A lot of the recreational users like to stick 
a GoPro or some sort of camera on their drone. You then upload 
that to YouTube, and YouTube sells ads on them. And where do 
you cross the line into commercial use and private use?
    Mr. Whitaker. Well, I don't think the example you raised 
indicates commercial use. I think that is a pretty common use 
of recreational drones. Commercial use is if you are being paid 
to operate, or if it is being operated as part of your business 
model.
    Mr. Farenthold. I can just see there being, you know, being 
some potential gray areas there, you know. My----
    Mr. Whitaker. Always are, yes.
    Mr. Farenthold. My kids put a lemonade stand up and they 
post a video, a shot with the UAV of them selling lemonade at 
their lemonade stand, you potentially cross that line.
    So I would just--my point is--and I would urge a light 
touch there for recreational users who really aren't being 
reckless. And, obviously, a lot of details there, and hopefully 
that is what some of your test centers that you are partnering 
with--universities, and the rulemaking processes are--but we 
have got to find the right balance between moving quickly, but 
not overregulating and killing a future industry.
    I see my time has expired. Thank you.
    Mr. Whitaker. Thank you.
    Mr. LoBiondo. Ms. Brownley?
    Ms. Brownley. Thank you, Mr. Chairman. Mr. Whitaker, in my 
congressional district, in Ventura County in California, the 
sheriff's department is the only public agency that currently 
uses UAS, aside from the Navy--we have a big naval base there, 
and future home of the Triton on the west coast. But the 
sheriff's department has received a certificate of 
authorization to operate the device. They use it primarily for 
search and rescue. We have mountains in the district, so it is 
very helpful, from that perspective.
    But every time the sheriff's office operates, they notify 
the nearby FAA air traffic control towers, and they also file a 
Notice to Airmen. And, as I understand it, that it not 
required, but they do it, they take the step out of an 
abundance of caution. Is that something that you, the FAA, 
might consider in their rule, in terms of a requirement that 
people who are operating UAS would have to do--on a commercial 
basis, obviously?
    Mr. Whitaker. Yes, the public-use UAS are really quite 
mature, and operated in several ways that the small UAS won't 
be able to initially operate. The NOTAM system, I think, is an 
interim step to getting us to a more real-time ability to 
notify other users of the system. But that is, I think, the 
appropriate procedures at this time.
    Ms. Brownley. So, I wanted to ask a little bit more on the 
COAs [Certificates of Waiver or Authorization]. I think I read 
in the documents that there is close to 1,700 or so COAs that 
have been given. So what is the sort of--what is your backlog 
right now? What is the current demand?
    Mr. Whitaker. I am not sure what the actual backlog is. I 
can get that information for you. We have increased our 
throughput fairly dramatically, so that we are doing over 100 a 
week now. So we have cleared a lot of the backlog, but they are 
also coming in at a pretty good clip. So we can get those 
numbers to you.
    Ms. Brownley. So do you have any idea of how many UAS are 
being operated without a COA? Again, commercial applications.
    Mr. Whitaker. We don't have a way of knowing that, exactly. 
The indications that we are getting from pilot reports gives us 
some glimpse into what is happening without authorization. But 
the numbers are too big for us to track, and we don't have 
those resources.
    Ms. Brownley. And you said that there--you have now--for 
UAS over 400 feet, or I guess over 400 feet or under 400 feet--
--
    Mr. Whitaker. So for the----
    Ms. Brownley. It is a standard contract?
    Mr. Whitaker. For the model it is 400 feet, and under the 
small rule it will be 500 feet and below.
    Ms. Brownley. And so, can you give me a sense of how many 
of these COAs that you are involved in negotiating a special 
contract for specific use?
    Mr. Whitaker. So we try to group these COAs as much as 
possible, to expedite the processing. There have been 1,800 so 
far on the commercial side, and, literally, thousands on the 
public-use side. So these vehicles are actually in pretty 
widespread use now.
    Ms. Brownley. And you said only 20 or so civil penalties 
have been----
    Mr. Whitaker. We have had several hundred investigations. 
Under our compliance policy, our first preference is to get 
people operating in accordance with the rules. And if we don't 
have to use enforcement, we don't use enforcement.
    There have been over 20 cases now that have required us to 
issue civil----
    Ms. Brownley. And what do those civil penalties look like? 
I mean what--can you describe what it----
    Mr. Whitaker. So the baseline is up to $25,000 per 
incident. In the case of the penalty that went out yesterday, 
it was $1.9 million. It involved dozens and dozens of flights 
over a heavily populated area.
    Ms. Brownley. So, in terms of wildfire suppression and the 
use of UAS, does the FAA have any specific legislative 
recommendations to improve the FAA enforcement authority, or to 
increase criminal or civil penalties for interference with 
wildfires?
    Mr. Whitaker. We are evaluating with other agencies the 
level of the penalties involved. Right now it is $25,000 on the 
civil side, up to $250,000 and 20 years in prison on the 
criminal side. That level is being evaluated, interagency.
    The biggest challenge we have, we think the most bang for 
the buck comes from education, because a lot of the operations 
are inadvertent. And on the enforcement side, the real 
challenge is how we locate the operators of the vehicle.
    Ms. Brownley. And on the education piece, in terms of Know 
Before You Fly, the educational program, materials, is there 
any legal barrier that prevents the FAA from requiring 
manufacturers to include this safety information in packaging?
    Mr. Whitaker. We are prohibited from regulating for 
recreational-use drones. It is possible that we could do a 
rulemaking around that, but the timeframe of rulemakings is 
such it is not a particularly viable tool for us. So we are 
very much focused on voluntary compliance at this point.
    Ms. Brownley. I yield back, Mr. Chairman.
    Mr. LoBiondo. Thank you. Mr. Hanna?
    Mr. Hanna. Thank you. As a pilot and someone who represents 
Griffiss Air Force Base, one of the six sites selected, I would 
suggest that there is more unanimity amongst you today than I 
have heard in a long time.
    One of the problems is that we are probably a severe 
accident away from a public cry over why haven't we done 
something. Whereas, as Mr. Mica kind of implied, or said 
directly, Mr. Whitaker is off schedule, to be polite. And I 
would suggest there is urgency to this, as you know.
    Mr. Canoll, you would have to agree that we are one 
accident away, I imagine, from something that people can't 
imagine that would create havoc, and be a rush to judgment 
about a whole lot of things that would affect Mr. Hanson's 
people. I have an 8-year-old son who owns three of these. If I 
bought him four more tomorrow, they would be wrecked by 
tomorrow night. They don't survive well, they are small.
    But--and I don't see--I would say the Notice to Airmen is 
really--give the assumption that people have perfect 
information, that people call, investigate, do their homework. 
And I know, as a pilot, people do not.
    I just--I wanted to ask you, Mr. Canoll, it is my kind of 
unconsidered opinion that these things do not belong near 
airports. And to that end, Mr. Hanson and Mr. Canoll, what kind 
of--and you have talked a lot about this in your statement, Mr. 
Canoll--is what kind of training do you think is appropriate 
that would--for the people that are flying these larger ones, 
or any one, if you will, that you would like to see?
    Mr. Canoll. Well, if the vehicle is intended to be operated 
in shared airspace, then I think the standard is very close to 
established, if not already established. And it exists for us, 
as a pilot, to complete our training, recurrent training, and 
maintain all our qualifications.
    If the vehicle isn't intended to operate in the airspace, 
then it is a matter of putting proper mitigations to keep it 
out of the airspace, be it from lost links, so the vehicle just 
doesn't fly off, or from unintentional blunders into the 
airspace. And that is the importance of the educational 
campaign that we all agree on up here.
    One element of the educational campaign is we should 
consider testing, where someone goes online, reads the 
materials, and takes a little test. That satisfies the parents 
that the child knows how to operate the vehicle.
    Mr. Hanna. What do you think about that, Mr. Hanson? I mean 
would you rather just stay out of airspace, pick a distance for 
different A, B, C, or whatever--you are not going to be in A 
airspace, but C or B airspace--do you accept what Mr. Canoll 
said, that you don't have--you should be in--you should have 
commercial training, or training as if a pilot, to fly in 
airspace that may have low ground levels near an airport?
    Mr. Hanson. I think we take a little different approach to 
it. I mean we consider all airspace shared airspace. I mean the 
FAA claims their authority down to within 1 inch of the ground. 
So we instruct our pilots, and our educational program is based 
upon the fact that you--there is always the possibility of 
encountering a manned aircraft in that airspace. And we are to 
take every step necessary to not interfere with manned----
    Mr. Hanna. But you have to admit that there is a lot more 
likelihood if you are on an airport than if you are not.
    Mr. Hanson. Sure. And as we talk about flying in closer 
proximity to an airport, then we have other procedures that we 
put in place. But the primary safety tenets is to not interfere 
and to see and avoid at all times, and we have a very 
instructional document that talks about how a model aircraft 
operator should see and avoid.
    And to the credit to the model aircraft community, there 
have not been significant airspace conflicts between true model 
aircraft and----
    Mr. Hanna. Let me ask you this, though. Why is it important 
that you operate in the same airspace that would be an airport? 
Why does that--what drives you to think that? I am not saying 
you don't have a right to that, I am just curious why that is 
important.
    Mr. Hanson. Well, I think it goes to the point that not all 
airports are created equal. We have a lot of very rural 
airports that have low traffic counts that are in communities 
where they are welcome to operate. We actually have clubs that 
are collocated on airports.
    Mr. Hanna. I have seen many of them, yes.
    Mr. Hanson. And they have--coordinating procedures allowing 
them to operate----
    Mr. Hanna. So then, implying from that, you might--that 
would suggest to me that there are places where you would say 
you shouldn't be--maybe C and B space to the ground--and places 
where you could, where it is just general space in a grass 
strip in the middle of Cooperstown, New York, where I happen to 
fly out of once in a while.
    Mr. Hanson. Well, there is no doubt there are locations 
where these types of devices shouldn't be flown.
    Mr. Hanna. Yes, yes.
    Mr. Hanson. It is not as easy an answer to say that you 
can't fly C, B----
    Mr. Hanna. I guess what I am suggesting is that you have a 
lot in common here. And, rather than fight for something that 
is not reasonable, you may want to think about what is really 
important to the people who operate these things for 
agriculture and recreation at the types of airports that you 
just described.
    Thank you, my time has expired.
    Mr. LoBiondo. The gentleman from California, Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman and Ranking Member, 
thank you for the hearing, a very, very important one.
    Mr. Larsen, you opened the issue of registration, and Mr. 
Farenthold picked it up, and I am--he mentioned picking up his 
smart phone at Amazon. It is registered. And most everything 
you buy today is registered, at least back to the manufacturer, 
in some way or another. It seems to me we don't need a 
Government registration program, but we need the Government to 
be able to access the registration program that the 
manufacturers probably already have.
    It would be very simple to do that. Of course, we could 
spend several years trying to write a regulation to accomplish 
that, which is probably what we will do, because that is our 
specialty. Why don't we just simply say, ``All of these UAS 
must be registered, held by the manufacturer or the seller of 
that, and the Government has the ability to access that under 
circumstances relating to an accident or some other incident''? 
Fairly simple, but probably far too simple for our normal 
workaround here.
    The question was just raised about airspace at an airport. 
You know, we can go back and forth with trying to find what 
geofencing is, and wait 20 years for some sort of technology to 
actually work, or we can simply say, ``Hey, if you are flying 
this UAS near a significant airport, a hub airport or a sub-hub 
airport, you are violating the law, and you are subject to a 
fine or even jail time. And, by the way, if you are flying near 
an active fire, you are subject to a fine and jail time.'' Now, 
that would immediately educate everybody involved in this sport 
or commercial activity.
    Now, the other way around is study, study, study, which is 
the specialty of the Government, or those who don't want any 
interference by anybody.
    So, anyway, I propose legislation introduced now, today--
actually, yesterday--that simply says if you are flying a UAS 
within 2 miles of a significant airport, you are breaking the 
law, and you are subject to 1 year in jail and a significant 
fine. And if you are flying near an active fire, you are 
breaking the law and you are subject to 1 year in jail. Now, 
that is a pretty clear message.
    So, Mr. Hubbard, what do you think of that, since you tend 
to fight fires?
    Mr. Hubbard. I think we need some help of some kind, 
because when we are fighting fire, we are at very low 
altitudes, and in very complex situations with a lot of 
distractions, not the least of which is smoke. So it is--the 
sense-and-avoid is very difficult. And if the technology isn't 
there for the sense-and-avoid, then we have to turn to the 
education or to the regulation.
    Mr. Garamendi. Mr. Canoll, Captain?
    Mr. Canoll. Yes, sir. I would love to see--I can't wait to 
read it, because I think it is a step in the right direction.
    One concern would be with the limitation of 2 miles, 
assuming the reference point is in the middle of the airport, 
the threshold is 1 mile from that point, the vehicles could be 
well above me on approach to that airport at that point. Two 
miles, I am approximately 900 feet off the ground from the end 
of the runway. So I think it should be a little larger than 
that, especially at some of our larger airports. If you look at 
Class B airspace around Atlanta and in Miami, it drops all the 
way down to the surface as far as 6, 7 miles from the airport. 
We don't want anyone operating off the surface at all inside 
Class B airspace, unless they are talking to air traffic 
control and being controlled by air traffic control.
    Mr. Garamendi. How about our little hobbyist?
    Mr. Hanson. Well, it has been a long time since I have been 
called little, but the devil, I think, is always in the 
details.
    Mr. Garamendi. Referring to the machines.
    Mr. Hanson. I think the devil is always in the details. 
And, as the captain pointed out, at some airports 2 miles 
certainly might not be far enough. Other airports, it may be 
adequate or may be even too far.
    I mean, if you were a homeowner within that distance, and 
you want to buy your--in my case--grandson one of these toys 
that can be flown in the backyard, I would hate to see him 
subject to a 1-year-in-jail penalty for flying it in his 
backyard. So I, like the captain, would be very interested in 
seeing the language of the proposed bill, and having an 
opportunity to comment on it.
    Mr. Garamendi. Well, I will see that you have it in a few 
moments.
    You know, we get really tied up in details here. And, in 
the meantime, as one or two of my colleagues have said, a time 
is going to pass, and the accident is going to happen. I will 
say the incident is going to happen; not sure it is an 
accident. But the incident is going to happen. We know that, in 
California, we have had numerous fires. We have also known in 
California that we are now facing a situation where those fires 
have expanded, as a result of drones shutting down the aerial 
operations. And we also had more than enough incidents in the 
airspace around airports, as was testified to.
    So, I think it is time for us simply to lay down a marker 
here, and say, ``If you are operating a UAS in these spaces, 
you are violating the law, and you are subject to a severe 
penalty.'' Now, that is the kind of education program that 
somebody might pay attention to. And if your grandchildren 
happen to be near that runway, and they are flying their little 
UAS that you kindly bought them that is somehow interfering 
with the approach of the captain into Atlanta airport, I am 
sorry, but the kid is breaking the law. And, as the responsible 
adult, you should also be held accountable, because we are 
talking about serious, very serious potential problems.
    Yield back my time, and I will deliver a copy of the 
legislation to you.
    Mr. LoBiondo. Mr. Rokita?
    Mr. Rokita. Thank you, Chairman. Good morning, everyone. I 
appreciate your testimony.
    Mr. Whitaker, it seems to me that folks in general aviation 
could work closely with drone operators and owners to help 
educate and train on these rules that are forthcoming, and 
different best practices for operations. Have you, as the FAA, 
reached out to any GA [general aviation] organizations or 
associations?
    Mr. Whitaker. I don't have specific examples of that. I 
agree, that that is an important aspect to this.
    I think one of the things that we are looking at is this 
question of airspace, and how it is defined. Because right now 
the law----
    Mr. Rokita. That is not my question.
    Mr. Whitaker. I am sorry.
    Mr. Rokita. So you think it is a good idea. So will you--
you will commit to reach out?
    Mr. Whitaker. Yes, sir.
    Mr. Rokita. OK. To who?
    Mr. Whitaker. To general aviation community----
    Mr. Rokita. Like who?
    Mr. Whitaker. Well, we usually work through AOPA [Aircraft 
Owners and Pilots Association] and small airport associations.
    Mr. Rokita. Would it--it is in your authority to reach out 
to them?
    Mr. Whitaker. Absolutely.
    Mr. Rokita. OK. So we will do that by what date, do you 
think? It doesn't necessarily have to be AOPA, but you say it 
is a good idea, I just want to get you on record when we can 
start moving to build partnerships where they make most sense. 
When can you do that by?
    Mr. Whitaker. If you would like, I can report back to you 
within 30 days on what--our plan to do that.
    Mr. Rokita. No, I--just tell us now when--you know, when 
you can make a phone call, when you can write a letter. When 
can you get these guys involved?
    Mr. Whitaker. Yes, in the next 4 weeks.
    Mr. Rokita. Great, thank you very much. Depending on the 
time of year, farmers may be out in the fields, wanting to use 
these machines. And I have--in Indiana there is farm operations 
24/7, probably starting right now. And I think the proposed 
rule, 107.29, only allows day operations. Are you considering 
modifying that at all, or are you going to be strict on the day 
operations?
    Mr. Whitaker. The rule----
    Mr. Rokita. Because I could see, in a farm field, where it 
could be--these machines can be used all around the clock.
    Mr. Whitaker. So night operations is one of the areas that 
is being researched, and it could be allowed by exemption. But 
as soon as we can find ways to do that safely, that is 
something we would like to allow.
    Mr. Rokita. OK. I appreciate that.
    Captain, thanks for your testimony, as well. How do your 
members know--when you talk about these near-miss sightings, 
and these reports of UAS, how do you know it is what they saw 
versus, you know, a balloon that a kid let go a while ago, 
which I see in my aircraft from time to time--try to do a 
circle around it--safely, of course. Or even a UFO 
[unidentified flying object]. You can go on cable at night, 
anywhere from 11 o'clock to 3 o'clock in the morning, and hear 
all these pilots' stories about UFOs. How do we know we saw a 
UAS, and what specifically does ALPA do to verify the 
sightings?
    Mr. Canoll. So there is a redundant set of eyes in the 
cockpit. And, hopefully, both pilots can lay their eyes on 
the----
    Mr. Rokita. So all these reports are double sightings?
    Mr. Canoll. Not always, especially if the aircraft was only 
down one side of the aircraft for----
    Mr. Rokita. Right.
    Mr. Canoll. You may only get the captain or the first 
officer's----
    Mr. Rokita. Right.
    Mr. Canoll. And they are small vehicles, and they are 
moving quickly, we are moving quickly, they----
    Mr. Rokita. As your video depicts, it is hard to see these 
things. So how are we so sure--I mean, Mr. Whitaker, you were 
picked on by my good friend, John Mica, for only having 20 
civil penalty cases. But, in all fairness, couldn't it be that 
you couldn't verify that these were even UAS to begin with?
    Mr. Canoll. You have to rely on the pilot's opinion of what 
he saw. We do see a lot of balloons.
    Mr. Rokita. But pilots aren't God.
    Mr. Canoll. No, sir. No one is asserting----
    Mr. Rokita. Right, so we shouldn't even necessarily on this 
panel or in America accept the premise that all these sightings 
or near-miss UAS sightings are really, in fact, UAS to begin 
with, should we?
    Mr. Canoll. No, sir, not all of them.
    Mr. Rokita. Right.
    Mr. Canoll. But many of them are in the----
    Mr. Rokita. How do you know how many, though? That is my--
--
    Mr. Canoll. I don't know how many, sir.
    Mr. Rokita. So we don't even know how many.
    Mr. Canoll. Quite a few more, and with the proliferation of 
the expansion to 1 million more of these, potentially, next 
year, even if a small percentage of them were UAS, I think we 
have a problem.
    Mr. Rokita. Well, that may be, but we don't know what we 
are talking about, because we can't even quantify it. There's 
millions of birds, too. Right?
    Mr. Canoll. I agree, that the fidelity----
    Mr. Rokita. That reminds me, Dr. Kochenderfer, you talk 
about Canadian geese being so much heavier. And the assumption 
in your testimony--at least something I took--is that birds are 
still certainly, or at least potentially, more dangerous. Yet 
the captain says, ``Well, you know, there's metal batteries in 
these things, and they are dangerous, too.'' Can you elaborate 
on your testimony?
    Dr. Kochenderfer. Yes, definitely. It depends entirely on 
the platform. I mean there are some drones that--there is one 
drone that came out last week that can fit on your fingertips, 
and weighs the same as three pennies. There are others, like 
the Phantom, that is one-third the weight of a Canada goose. 
There are others that have, like, a 10-foot wing span and weigh 
30 pounds. So it really depends.
    Mr. Rokita. Yes, so you can't quantify it.
    Dr. Kochenderfer. That is right.
    Mr. Rokita. And in the time I have remaining, I want to go 
into the commercial licensing structure, Captain Canoll. Your 
organization is recommending a commercial pilot's license, yet 
the flight characteristics of these drones, the stall 
characteristics, are completely different.
    I have a commercial license, and it is basically a VFR 
ticket that is met with higher specifications. I don't 
understand why we need a commercial license. I am not getting 
that, and I am wanting to assume it is simply because you are 
worried about job protection, you are worried about the one day 
that these operators might--or these unmanned vehicles might 
take away a pilot's job.
    Mr. Canoll. No, sir, that is not the concern with the 
commercial operations. Operations for remuneration on all modes 
of transportation, be it a taxicab, an airplane, a sea-going 
vessel, all require commercial operations----
    Mr. Rokita. Right.
    Mr. Canoll [continuing]. And that is the basis of----
    Mr. Rokita. Because it is revenue-generating.
    Mr. Canoll. Correct.
    Mr. Rokita. So, in fact, you are worried about the revenue-
generating impact of this, not necessarily the safety impact of 
this----
    Mr. Canoll. There is a higher expectation of safety when 
you pay for a service. Yes, sir. There is a safety element, as 
well.
    Mr. Rokita. Thank you. My time has expired.
    Mr. LoBiondo. Mr. Capuano?
    Mr. Capuano. Thank you, Mr. Chairman. Thank you, gentlemen. 
I am not going to say anything you don't already know, so you 
can go to sleep, it doesn't much matter.
    But to be perfectly honest, I just got off a plane. If a 
drone pulls down a plane that I am on, I guarantee you 
everybody you represent is going to get sued. And if you put me 
on a jury on a case like that, you are all going to lose. 
Because we can do something. Maybe it is not perfect yet. I am 
sure it is not, because this is a new and evolving technology.
    But doing nothing in the face of a clear danger is not an 
excuse, to be perfectly honest. Getting it right over time, 
fine. But we should be doing stuff. Putting an educational 
packet--look, I own two drones. Not really big ones. I haven't 
got a clue what the heck I am doing with them, either. I really 
stink at it, which, of course, is a danger.
    Now, I don't know about the 2-mile limit on the airport, I 
live within 2 miles of an airport, and probably a lot of my 
constituents live a lot closer than that. I don't know. I 
wouldn't intentionally try to bring down a plane, but Christmas 
presents, Christmas Day, some kid doing something on a drone 
you can get out of Brookstone, nothing special. This is crazy.
    We can do it on automobiles, we can do it on my phone. If I 
drop this phone today, right now, some very smart 15-year-old 
technology kid could figure out where I bought it, who it 
belongs to, where I was yesterday, who I called, et cetera, et 
cetera. Yet, if it happens to a drone, nobody knows. ``Well, I 
saw something, I don't know what it was.'' Come on. You can put 
VIN numbers on it, you can put all kinds of wonderful, tiny 
little technology on it, even in something as small as your 
finger. And if you can't do it, I can--not me--I can find 
people who can do it, to be able to track it down.
    Never mind the regulations. Now, I am all for those 
thoughtful regulations, thoughtful licensing. Not a problem. I 
am not trying to shut down the technology at all. I think this 
technology is opening up a wonderful new frontier, both for 
hobbyists and for professionals at all kinds of levels. But it 
also presents a danger, and that danger shouldn't be accepted. 
And just because it is difficult, doesn't mean we shouldn't do 
something.
    So, I don't really have any questions, because I know you 
can do it. I just see a reluctance to do it, especially from 
the FAA. And I don't understand it. I don't understand it at 
all. Do something before somebody loses their life on this. I 
don't want to be here, yelling at you for having done nothing. 
That is no fun. And I certainly don't want to be yelling at you 
if it is somebody I know, and somebody I love, or somebody you 
know and somebody you love, or somebody in your profession. 
This is crazy. Just get it done.
    Now, again, I understand it won't be the last item. I know 
that this is an evolving thing. I know that coming up with 
smaller things and bigger uses--and I am not so sure about the 
2-mile radius, because there are some parts of a 2-mile radius 
that there's no planes at all. But I also know that there are 
some places beyond 2 miles that it does. So I am not sure what 
the answer is.
    You guys know it. You already know it. I am not trying to 
involve myself, or trying to prohibit any hobbyist from doing 
anything that is reasonable and thoughtful. And I think that 99 
percent of the people who are using these things are well 
intended, and just might make accidents. But accidents didn't 
stop us from putting VIN numbers on automobiles, on 15 
different places on automobiles. Accidents happen.
    But there are also some people that are bad people. And if 
there are bad people out there doing bad things, we haven't 
done anything that I know of to be able to allow us to find 
them. If somebody intentionally goes out to Logan International 
Airport tomorrow and sits in East Boston and flies a drone 
intentionally into a plane to kill somebody, we have allowed 
the technology to not exist. And it exists easily to be able to 
find that perpetrator. So you can have all the criminal 
prosecutions in the world. If you can't find them, it is not 
going to help. You can find my phone, you can find my 
automobile. Heck, for all I know, you can probably find my 
underwear. I don't know. But we can't find drone owners, 
because we haven't required a simple item to be installed. If 
you want to do size, do size.
    By the way, at Logan we have a lot of geese. You can't 
control geese. But we chase them around. We get dogs to chase 
them around. They have a great time. We do something. Maybe 
there are better ways to do it, but we do something. Something 
is always better than nothing in the face of a known danger.
    Like I said, I wasn't going to say anything you didn't 
already know, but thank you for listening.
    Mr. LoBiondo. Mr. Meadows?
    Mr. Meadows. Thank you, Mr. Chairman.
    Dr. K--I will call you Dr. K. Let me go to you.
    Dr. Kochenderfer. That is what my students call me.
    Mr. Meadows. Let me go to you. In your opening testimony 
you talked about midair collisions, and how the magnitude would 
be more significant in certain areas, and negligible in others. 
Can you elaborate a little bit more on that?
    Coming from the rural area of western North Carolina, where 
you would assume most of it would be safe, but there's a number 
of small airstrips, grass strips, et cetera. So illuminate, if 
you would.
    Dr. Kochenderfer. Yes. So when I was at Lincoln Laboratory, 
we got a stream of radar data from all of the FAA and DOD 
radars, and we estimated the density across the United States 
at different altitude layers, and so forth. And there are a lot 
of areas where we just didn't see anything in 9 months.
    Mr. Meadows. So could we put forth certain counties where 
we have drone-free zones, or drone-permissible--are there 
certain counties across the country where there is relatively 
little if no chance of having interaction with an aircraft?
    Dr. Kochenderfer. I guess that could be a----
    Mr. Meadows. That is a loaded question, so go ahead.
    Dr. Kochenderfer. It depends so much upon the altitude, 
right?
    Mr. Meadows. Yes.
    Dr. Kochenderfer. So that has to be part of the figure.
    I mean I wouldn't--even over rural North Dakota or 
whatever, you shouldn't be at 20,000 feet.
    Mr. Meadows. All right. So let me go further, then. How 
would you classify ``near miss''? What is your definition?
    Dr. Kochenderfer. So I did a lot of collision risk 
estimation for TCAS. TCAS was mentioned earlier. It is a 
collision avoidance system for manned aircraft, and the FAA is 
working on a version for unmanned aircraft. And as part of that 
analysis, we used a definition of 500 feet laterally, and 100 
feet vertically. So that is for manned aircraft.
    And there is nothing magical about this definition, it is 
just what----
    Mr. Meadows. So, Captain, would you agree with that 
definition of ``near miss''? Is that satisfactory?
    Mr. Canoll. Currently there exists a criteria for a near-
miss report.
    Mr. Meadows. Yes, I am talking about his definition. Would 
that be satisfactory to the airline pilots?
    Mr. Canoll. I don't believe so, sir, because it doesn't 
provide any--near what we would need to avoid the collision.
    Mr. Meadows. Can you get to the chairman of this committee 
what you would estimate a near miss would be, and----
    Mr. Canoll. I am not sure we are equipped to do that 
analysis, sir. But we can----
    Mr. Meadows. Well, can you query your pilots and ask them 
to opine on it? How about that?
    Mr. Canoll. Yes, sir. We can ask----
    Mr. Meadows. OK.
    Mr. Canoll [continuing]. And gather as much information as 
possible.
    Mr. Meadows. Let me go real quickly and finish up.
    Mr. Whitaker, some have suggested that your rulemaking has 
not been expeditious. And I believe, in your earlier testimony 
here, when you were talking about doing a rulemaking for 
commercial drones, when--I guess you said the commercial 
viability and economic viability increases. Did I hear you 
correctly on that?
    Mr. Whitaker. I think the question was around large UAS.
    Mr. Meadows. Right.
    Mr. Whitaker. Yes.
    Mr. Meadows. And that you would--so there is a certain 
mentality that says if you build it they will come. And your 
testimony here today is if they build it we will regulate it?
    Mr. Whitaker. No. We are trying to move in step with both 
the commercial demand and the technology.
    Mr. Meadows. But, Mr. Whitaker, let me suggest that you are 
more forward-thinking in terms of regulations. The ambiguity of 
FAA doing nothing creates the kind of dynamics that we have 
here today, both on the commercial and on the hobby side of 
things. And the more finite you can be, the better that 
commercial activity will be, in terms of meeting your 
expectation. If we wait until--to draw the regulations until we 
have problems, as we are trying to do today, it creates much 
uncertainty in the market. Wouldn't you agree with that?
    Mr. Whitaker. Yes, sir.
    Mr. Meadows. So how do we best move your rulemaking faster, 
as it relates to the near misses that we are talking about 
here, and allow us to compete in drones? Because if not, if--we 
are going to lose out to the drone technology in Europe. We 
have had other testimony sitting at that very table that would 
suggest that. So how do we make sure that you are nimble and do 
that effectively?
    And I am out of time, so I will yield back, and----
    Mr. Whitaker. Thank you.
    Mr. Woodall [presiding]. The gentleman yields back. The 
Chair recognizes the gentlelady from Nevada, Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. I believe that FAA has 
a definition of ``near miss'' that is already in regulation 
that is a lot larger than what the professor mentioned. But, 
anyway, we can check that out.
    I would like to direct my comments to the Administrator. 
But if any of the rest of you want to weigh in, I would 
appreciate that.
    You know, I represent Las Vegas. And I was a strong 
proponent of Nevada being named one of the original test 
centers for this kind of technology. And you mentioned that 
they are there for collaboration and research. But what seems 
to have happened is that these test sites have kind of fizzled 
out. There is not a lot of attention there, they kind of don't 
know what their goal is, what they should be doing. I would 
like to get you to comment on that.
    What can these test sites be doing, what is the FAA doing 
to encourage and support them? Seems like the FAA has now got 
all its attention on granting these section 333 exceptions, as 
opposed to working with the test sites. What is the point of 
them now? If you would, address that.
    And I would also ask you that when they grant these 
exceptions, do you continue to get information from these 
facilities that now can fly? And how do you use that 
information to inform this process of regulation development? 
Or is that just once they get the exception they are out there, 
and we don't know what is going on?
    Mr. Whitaker. Yes, ma'am. The test sites, the six test 
sites, are designed to provide an infrastructure for testing, 
so that the private sector can use them, and other researchers 
can use them for flight tests and other testing. We have tried 
to streamline the approval process to a large degree, which I 
think we have done.
    But at the same time, they are also designed to be a 
marketplace. So they have to compete for that work. And some 
test sites have been more successful than others in that. We 
have been meeting with all the test sites over the last 2 
months to try to help jump-start and facilitate some of that 
work.
    To your second point, the tech center has a role in 
accumulating the data from the test site operations and 
collating that data and using it for supporting our research 
efforts.
    Ms. Titus. Anybody else care to comment on whether these 
test sites are working like they should, or we are getting 
enough information from them, or they don't make much 
difference?
    Mr. Canoll. Well, I think industry, ma'am, as they start to 
see the value of the test site--because, while I am not a 
technician, I am not a designer, but the company that comes up 
with a small, lightweight, universally powered active collision 
avoidance system that is priced at a point that can be placed 
on almost any aerial system, that company is going to make a 
lot of money. And their best place to test these are the 
existing test sites. So I think it is a good program, moving 
forward.
    Ms. Titus. I would like to go back to the Administrator. 
Part of my question was about granting all the section 333 
exemptions. That seems to be where most of your energy and 
effort is concentrated now, instead of supporting technology 
and testing and data collection. Is that accurate, or----
    Mr. Whitaker. Well, I would say those are different 
functions. And the section 333 has certainly gotten a lot of 
attention, but it is a different group, if you will, within FAA 
that does that. We have research going on with MITRE 
Corporation, with--in conjunction with NASA, DOD, at the tech 
center, and at the Center of Excellence. So we are focused on 
all of those things, and they are all part of the puzzle, going 
forward.
    Ms. Titus. So do you get information back after you have 
granted an exemption to one of these companies, or----
    Mr. Whitaker. Not necessarily for commercial exemptions, 
although we do have some commercial partnerships, where we are 
taking that data and analyzing it.
    Ms. Titus. Wouldn't that be helpful for making up these 
regulations?
    Mr. Whitaker. Well, it is not a restriction. We have issued 
1,800 333 exemptions. It is not a restriction that we feel is 
appropriate for commercial operators to mandate that type of 
work.
    Ms. Titus. So you don't think it would be helpful to find 
out what these----
    Mr. Whitaker. It might be helpful in some that are willing 
to do that that we have partnered with.
    Ms. Titus. So it is voluntary?
    Mr. Whitaker. That is correct.
    Ms. Titus. And if you look at the way the agency is set up, 
is there more priority, more effort, more energy put in to 
granting these exceptions than in the testing and the 
technology and the test centers?
    Mr. Whitaker. No, I would say they are not linked. And as 
the small rule gets finalized, that 333 process will be 
dramatically reduced.
    Ms. Titus. Well, if the--but they are--shouldn't they be 
linked? You are the one who used the term ``collaboration'' 
about the test sites. Shouldn't----
    Mr. Whitaker. Well, they are linked as far as exchange of 
information. But the 333 approval process is a different 
workforce than the research coordination.
    Ms. Titus. Right. But isn't that where the priority is now, 
instead of on the testing and getting the information to make 
these regulations?
    Mr. Whitaker. The priority would be on both of those.
    Ms. Titus. How do you measure that?
    Mr. Whitaker. Well, we measure the 333s by throughput. And 
on the test sites and the research, it is not amenable to 
immediate sort of metric measurements. But there is a lot of 
research, a lot of effort going into that.
    Ms. Titus. OK. Thank you.
    Mr. Woodall. The gentlelady yields back. The Chair 
recognizes the gentleman from South Carolina, Mr. Sanford.
    Mr. Sanford. Thank you, Chairman. It strikes me, I guess, 
three things hit me: one, the unmanned is the--if it is not the 
future of flight, it is certainly the next frontier of flight; 
two, that there has been a long-time fascination with flight, 
going back to the days of da Vinci, and moving forward to the 
Wright Brothers; and three, that we want to encourage 
innovation on that front. And, in general, Government 
regulation control and other inhibits that innovation that I 
think is vital, ultimately, to American competitiveness.
    So, we want to have, you know, kids out there, fiddling 
with something. You say, ``Well, if you tie these three rocks 
onto it, will it fly as well?'' I mean, you know, at the base 
level, kids in the basement of a garage working with some of 
this stuff may well lead to innovations and new developments 
with regard to unmanned flight that, I think, could have 
commercial applications, and certainly competitive 
applications.
    And so, you know, what has hit me in sort of listening to 
testimony today is, you know, how do we get to a place that is 
minimally invasive, with regard to unmanned, and how do we get 
to a place that keeps Government out of involvement as much as 
possible, so that we maximize individual freedom without in any 
way interrupting commercial flight or noncommercial flight.
    And so, I was intrigued by what my colleague from 
California had gotten at, and my colleague from North Carolina. 
How do we come up with something that is really simple, whether 
that is the kind of legislation you talked about, so that you 
don't end up with a bunch of, you know, things being tacked on 
to this equipment that raises the price, that keeps, frankly, 
many consumers out of the marketplace? How do you keep up with 
some massive database? And then we got to hire more bureaucrats 
to cover the database, watch the 90 percent of folks who 
wouldn't be a problem. How do we do something quite simple, 
whether that is the Garamendi language, or something else?
    And I guess I would begin with you. Any ideas from your 
end, Doctor, on something that you may have seen in a different 
country as a best practice, or something that you may have 
heard about in talking with other colleagues that would, 
indeed, be minimally invasive?
    Dr. Kochenderfer. Yes. So I think an altitude limit is 
minimally invasive. Very easy to implement. That is something 
that we can do now.
    Mr. Sanford. But if I understand it right, it wouldn't 
solve the problem of, you know, you go to 400 feet, but if you 
are 400 feet off final, then you got a problem.
    Dr. Kochenderfer. Yes. So, I mean, trying to solve the 
whole problem is very complicated, and will take time. Four 
hundred feet is something that----
    Mr. Sanford. OK, that would be your vote.
    Dr. Kochenderfer. Yes.
    Mr. Sanford. Let's just--we will keep it moving. Mr. 
Hanson, your thought? Quick thought. Most simple remedy would 
be what?
    Mr. Hanson. I believe that the community-based approach has 
proven, for decades, to be an effective way of handling at 
least the model aircraft/hobby environment, and I would look to 
that to continue keeping this operation----
    Mr. Sanford. Community-based model. Captain Canoll?
    Mr. Canoll. So outside of the community base, those who are 
operating outside of that, the altitude restriction would help. 
But also, if there was a way to restrict the enabling of the 
vehicle when you purchase it until a code is put in--you need 
to get that code, you have to go online and pass a test, and 
now you know, ``Oh, that is right, I can't go to the airport, 
because I couldn't get my code without passing the test.''
    Mr. Sanford. Code. Mr. Hubbard?
    Mr. Hubbard. Until technology catches up, public awareness.
    Mr. Sanford. Mr. Whitaker?
    Mr. Whitaker. I would say the most efficient way to get 
there is an industry-based standard, so we don't have to go 
down the regulatory path. And that involves stakeholder 
engagement, which we are also focused on.
    Mr. Sanford. I very much like that idea of industry 
standard versus Government edict.
    One quick question, because I see I am down to 52 seconds. 
And I guess this would be directed to you, Mr. Hanson. Going 
back to that idea of industry standard, how would you describe 
the way in which AMA develops and educates its members and the 
general public about certain modeling guidelines and safety at 
large?
    You know, you talk about community standard, you talk about 
sort of industry standard. How do you all do that, presently?
    Mr. Hanson. Well, currently, within our membership we--a 
lot, if not the majority, of our education is done at the local 
club level, with the club--the local people come together and 
gather in a club and share information.
    In terms of the broader membership, we do that through our 
mainstay magazine, through our online presence. And then, in 
terms of the uneducated consumer, we are doing that through the 
Know Before You Fly campaign.
    Mr. Sanford. I see I have 1 second left, Mr. Chairman. 
Well, down to zero.
    Mr. Woodall. Thank you for yielding back that second, Mr. 
Sanford. The Chair recognizes the gentleman from Washington, 
Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Deputy Chief Hubbard, in your testimony you said the Forest 
Service and the Department of the Interior are developing a 
summary of the 2015 field season, and you will make 
recommendations. When could we expect to see that summary?
    Mr. Hubbard. The summary of the incursions?
    Mr. Larsen. Yes.
    Mr. Hubbard. Yes, we have that available now.
    Mr. Larsen. Oh, OK, all right. It is available now. Are you 
making recommendations from that summary?
    Mr. Hubbard. No, that is just capturing what we have 
encountered. And we turn to FAA and others for recommendations.
    Mr. Larsen. So one of the instances in California you 
reported that five aircraft were delayed for 20 minutes. Is 
that right?
    Mr. Hubbard. Yes.
    Mr. Larsen. Yes. What impact can a 20-minute delay have on 
your ability to contain or suppress a fire? What happens in 20 
minutes?
    Mr. Hubbard. In back-country fires, not a lot. It gets 
bigger. In interface fires, where you have life and property at 
risk, it, of course, depends on the situation. But it could be 
dramatic.
    Mr. Larsen. Define dramatic.
    Mr. Hubbard. Loss of property, for sure. And sometimes 
putting lives at risk.
    Mr. Larsen. Yes, yes. So, after we get a chance to review 
the summary, I may do some followup with you on--just to 
understand better what steps we might take.
    So then, FAA and you all have worked on it. Do you have an 
MOU [memorandum of understanding]? Is that right, or an MOA 
[memorandum of agreement]?
    Mr. Hubbard. MOA, yes.
    Mr. Larsen. An MOA. And what is in that MOA?
    Mr. Hubbard. How we would want to proceed together to try 
to resolve these kinds of issues, because we know we are an 
outlier, in terms of our statistics and our operating 
altitudes. And it is going to be a little more complicated. So 
we need some help.
    Mr. Larsen. How many millions of acres did you say were on 
fire in the West this year?
    Mr. Hubbard. We burned 9 million acres.
    Mr. Larsen. Nine million? What was the other number that 
you had? I mean how many individual fires were there?
    Mr. Hubbard. 47,000 fires.
    Mr. Larsen. Is that an outlier?
    Mr. Hubbard. No.
    Mr. Larsen. So I don't think you are an outlier. I don't 
think so.
    Mr. Whitaker, how do you confirm that there have been 
situations where drones have come inappropriately close to 
aircraft? There's been some questions about confirming these, 
whether they are or they aren't. How does the FAA come around 
and confirm these?
    Mr. Whitaker. Well, I think, as others have discussed, they 
are difficult to confirm. We don't have numbers on these things 
that we can see, we don't have an ability to locate them the 
way we would with a laser, for example. And that is just the 
nature of the data. So it is very raw data.
    I think what we can say is that the trend in the data is 
pretty obvious. So the number reports on a monthly basis now is 
over 100, and that is a fivefold increase from a year ago. So 
you can argue around the margins, but I don't think there is 
any question that there is a significant trend.
    Mr. Larsen. Yes, yes. And Captain Canoll, how do you 
confirm? How does ALPA confirm these numbers?
    Mr. Canoll. Well, it is--the information we get is on an 
anecdotal basis, and then we point our members to the Web site, 
which helps them refresh their memory on the criteria for a 
near midair collision report.
    Mr. Larsen. Oh.
    Mr. Canoll. And then, if, in their mind--which is the 
determinative factor in this instance--they believe they had 
one, we point them to the various links at the FAA, so they can 
fill the form out and submit the report. That is beyond the 
report that happens real time, where the pilot says, ``Hey, 
there's one of those X-wing drones,'' presses the button on his 
transponder, and calls the tower or the approach control, and 
says, ``I just observed this,'' and then the controller can 
say, ``OK, that is a data point for us.''
    Mr. Larsen. Yes.
    Mr. Canoll. And can warn the aircraft behind them. That is 
very important.
    Mr. Larsen. Yes, right.
    And, Dr. K, you are the technology guy. How would you 
suggest we clean that up? How to confirm these----
    Dr. Kochenderfer. Yes, it is really tough if you just rely 
upon pilot reports. And I don't want to diminish the severity 
of this, but there have been, well, at least one case where the 
pilot thought they hit a drone, and it turned out later to be a 
bird. So it is very tricky.
    So what you would have to rely upon is some kind of 
surveillance system, perhaps something near an airport that 
could actually capture these things.
    Mr. Larsen. Yes, yes. And can you talk a little bit, as 
well, about--and this will be my final question, I just want to 
understand, without getting into the deep, gory details, but 
the difference between an engine taking in a bird, and an 
engine taking in either a composite material drone, or a drone 
that is metal-based.
    Dr. Kochenderfer. Yes. So, I should clarify that engine 
ingestion is not my area of expertise, but I have talked with 
some people, and we don't really know. And I was very happy to 
hear that the FAA is pursuing that. But, I mean, it is not 
rocket science. It has probably something to do with the size 
of the drone, the components it is made out of, and so forth.
    Mr. Larsen. Sure. So we will think about that. Thank you, 
Mr. Chairman.
    Mr. Woodall. The gentleman yields back. The Chair 
recognizes the gentleman from Illinois, Mr. Davis.
    Mr. Davis. It is always tough to follow my colleague 
talking about engine digestion or ingestion or indigestion. So 
great question, Mr. Larsen.
    Hey, thank you for being here. I apologize. Multiple 
hearings today, so if I am redundant with any of my questions, 
please forgive me. But I have a concern. I represent central 
Illinois, home to some of the manufacturers of our newer types 
of hobby aircraft in UAV technology, and also home to many 
possible users of this technology for commercial use.
    And I know a lot of discussion was on the exemption program 
that is currently being implemented and run through the FAA. 
And part of my concerns have to do with some previous hearings 
like this, where we talked about the exemption process moving 
very slowly to offer commercial exemptions to those who have 
applied. And now, since they have sped up, what we have seen is 
some of the older requests being limited versus some of the 
newer requests in what can be done with the technology for 
which they have applied for the exemption.
    And Mr. Whitaker, I appreciate that your process has 
evolved at the FAA, but I think there is--there might be a 
concern where older applicants and older exemptions that were 
issued may need to have some of the newer flexibility that some 
of the newer exemptions that are being issued currently enjoy.
    So, can you tell me? Is there a process in place at the FAA 
right now to look at some of the older applications to see if 
they need that same type of flexibility? And, if so, are you 
going to do that unilaterally, or is that something that the 
previous applicants have to do?
    Mr. Whitaker. So this is not a concern that I have heard 
expressed before, but it sounds like a concern that the newer 
exemptions have more flexibility. That would normally be 
triggered by the current holders coming back for some 
adjustment to their 333 application. But I----
    Mr. Davis. So they would have to come back personally to 
change the operational conditions that they----
    Mr. Whitaker. As opposed to us changing the conditions for 
them. But I will look into that and respond to your office----
    Mr. Davis. Well, please do. It is a concern of those in my 
district----
    Mr. Whitaker. Yes.
    Mr. Davis [continuing]. Who have been possibly granted 
exemptions that may now be outdated.
    Mr. Whitaker. Yes.
    Mr. Davis. And I do believe--and I hope that you take this 
back--that we need to have some flexibility in that process, 
because the technology has changed, even over the time that 
this program, this exemption program, was implemented.
    Mr. Whitaker. Absolutely.
    Mr. Davis. And the technology that is being produced in my 
district is going to continue to evolve unless we, the Federal 
Government, stop its ability to evolve and to continue to grow 
into what I think should be commercial usage, and a much more 
flexible commercial usage for UAV technology, and to do it in a 
safe way. But I don't think--I think that can happen.
    And while I have time left, I will not butcher your name 
like--my colleague, Mr. Larsen, didn't either, since I wasn't 
here to get the correct pronunciation. I will call you Dr. K 
again, too.
    Dr. Kochenderfer. That is just fine.
    Mr. Davis. Can you give me an idea of how maybe transponder 
technology could be helpful in avoiding some of the collisions, 
some of the issues that I think the FAA is facing right now, 
and we are, too, as policymakers?
    Dr. Kochenderfer. Yes. So if unmanned aircraft are going to 
be flying at the level of transport aircraft, or even up with 
general aviation aircraft, in order to be seen by TCAS and so 
forth, they need to have some kind of transponder.
    Mr. Davis. Doesn't that transponder technology work at 
lower level flights, like life flights?
    Dr. Kochenderfer. It could work, as well. I am not sure how 
many life flight helicopters have TCAS installed. But it is a 
possibility.
    The problem, though, is that the cost of these 
transponders, including ADS-B Out, is pretty expensive. And 
they consume power and they are heavy. So for a lot of these 
larger aircraft, it makes sense, and should be absolutely 
required. But for smaller drones, maybe a couple pounds----
    Mr. Davis. So the technology for lightweight transponder 
technology does not currently exist for the newer versions of 
UAV. Right?
    Dr. Kochenderfer. There is a lot of interest in actually 
developing this, and this is an activity of Google, in fact.
    Mr. Davis. An entrepreneur's dream, or an entrepreneurial 
dream.
    Dr. Kochenderfer. Yes.
    Mr. Davis. And how do you pronounce your last name, since I 
don't have any more time?
    Dr. Kochenderfer. It is Kochenderfer.
    Mr. Davis. Thank you. I yield back.
    Mr. Woodall. The gentleman yields back. I recognize myself 
for just a few moments.
    Mr. Whitaker, you talked about the difference between going 
after folks with serious penalties when they did not learn 
their lesson, versus trying to train folks up. I am thinking 
about the number of incursions on restricted airspace by 
licensed pilots, by trained pilots, by pilots flying planes 
with transponders. I see those incursions in restricted 
airspace listed in the thousands. Do you happen to know how 
many of those folks have faced serious penalties, versus just 
trying to be trained up?
    Mr. Whitaker. So you are talking about incursion between 
manned aircraft?
    Mr. Woodall. That is right.
    Mr. Whitaker. Yes, I don't have statistics on that. Our 
compliance philosophy would largely be the same, that we would 
be focused on remediating the problem and making sure there is 
compliance as a first step, before moving to enforcement.
    Mr. Woodall. I am told the maximum financial penalty for 
one of those restricted airspace incursions is $1,100. I think 
Mr. Mica from Florida has legislation to increase that to 
$100,000. But I just want to contrast that for a moment with 
what we are talking about with unmanned vehicles today.
    Captain, you are one of my bosses, so I take you at your 
word when you tell me how we can solve problems. But I have 
heard a lot about adding technology to these $55 drones to keep 
them out of restricted airspace, yet no one is making that same 
suggestion for $50,000, $100,000, $150,000 manned aircraft.
    Is the importance of keeping folks out of restricted 
airspace such that, before we start talking about adding 
technology to $55 drones we should be adding it to $55,000 
aircraft?
    Mr. Canoll. So I think it is a multilayered problem. And it 
is not only the financial penalties for manned aircraft. 
Straying into restricted airspace will ultimately result in you 
losing your license to operate the aircraft.
    And tracking who is the operator of the unmanned aerial 
system is difficult. So that is where part of the conflict is. 
I think we have to look at it--both.
    And, you know, I don't know the numbers, either. But I do 
know we have programs in the manned aircraft community, such as 
ASAP [Aviation Safety Action Program], where if you make a 
mistake in an aircraft--we are human, and we do make mistakes--
you have a way of reporting it. And that report is gathered 
into a very large database. And we can do analysis on it. That, 
to my knowledge, doesn't exist for the commercial operation of 
unmanned systems. Yet I think it would be a good idea for us to 
look at it.
    Mr. Woodall. Having that reporting database might be the 
more powerful, as a dictator of behavior, than having some of 
these technological restrictions across the board.
    Mr. Canoll. I think they are both important. But to have 
the database of someone who could voluntarily report, ``Hey, I 
lost command of my vehicle for this amount of time, and I think 
it was because of this,'' then we can look towards mitigations 
for the problems that they experienced in the future.
    Mr. Woodall. Doctor, you suggested that--in response to one 
of my colleague's questions--that one of the easy answers would 
be an altitude restriction. My guess is we are either going to 
have to change the strength of the transmitter, or put an 
altimeter in every unmanned aircraft to make that effective.
    Is that what you had in mind, a technology solution to 
create an altitude restriction, not just a rule that then would 
be left up to individuals about whether they abided by it or 
not?
    Dr. Kochenderfer. Yes, I think that something should be 
enabled by default. Because, like I said, when you pull it out 
from underneath the Christmas tree, a lot of people just try to 
see how high they can go. And we really want to prevent things 
like that.
    But it should be allowed to be overriden, because a lot of 
these consumer drones are used by legitimate operators, like 
law enforcement and so forth.
    Mr. Woodall. Well, that was, in fact, the very first line 
of the captain's written testimony, is this is obviously an 
industry that has great benefit potential for America, for 
quality of life, for safety of pilots, and how can we come 
together on that.
    I will close with this, then. I would ask each one of you. 
In the context of terrorism, I can tell you there are an 
unlimited number of folks who want to do us harm. I am sorry, 
an unlimited number of ways to do us harm, but a limited number 
of folks who want to do it. In this area that we are talking 
about today, unlimited number of ways that accidents can happen 
by untrained personnel, a limited number of folks who really 
are out there, day in and day out, to violate the rules, as the 
FAA has indicated just this week.
    Is that the challenge, Doctor, not to find a one-size-fits-
all aircraft solution, but to go after those folks who would 
intentionally violate the--whether it be industry standards or 
Federal regulatory standards?
    Dr. Kochenderfer. In my written statement I categorize the 
different kinds of users. So I worry a lot about the naive 
users and the reckless users. I think bad actors are a separate 
category, and I would have to say that there is relatively 
little we can do about that right now.
    Mr. Woodall. Mr. Hanson, should we be focused on the naive 
users or the bad actors?
    Mr. Hanson. Well, I think intentional acts need to be dealt 
with, and I think there are existing laws and sanctions that 
could be put in place to do that.
    The naive, or the uneducated community is one that we 
really need to focus on, because we firmly believe--and our 
experience shows us--that the users, if good-natured and 
conscientious individuals, they just need the proper 
information.
    Mr. Woodall. I thank you. If there are no further 
questions, then I thank all of the witnesses for their 
testimony and their indulgence today, and the committee stands 
adjourned.
    [Whereupon, at 12:13 p.m., the subcommittee was adjourned.]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
  
   
    
                          [all]
</pre></body></html>
